<html>
<title> - THE GREAT LAKES RESTORATION INITIATIVE: A REVIEW OF THE PROGRESS AND CHALLENGES IN RESTORING THE GREAT LAKES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








 THE GREAT LAKES RESTORATION INITIATIVE: A REVIEW OF THE PROGRESS AND 
                CHALLENGES IN RESTORING THE GREAT LAKES

=======================================================================

                                (114-27)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 30, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-275 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 ELEANOR HOLMES NORTON, District of 
JOHN KATKO, New York                 Columbia
BRIAN BABIN, Texas                   RICHARD M. NOLAN, Minnesota
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
DAVID ROUZER, North Carolina
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                                Panel 1

Chris Korleski, Director, Great Lakes National Program Office, 
  U.S. Environmental Protection Agency...........................     5
Jose Alfredo Gomez, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................     5
Tony Kramer, Acting Regional Conservationist, Northeast Region, 
  Natural Resources Conservation Service.........................     5

                                Panel 2

Jon W. Allan, Chair, Great Lakes Commission......................    27
Hon. John Dickert, Mayor, City of Racine, Wisconsin..............    27
Ed Wolking, Jr., Executive Director, Great Lakes Metro Chambers 
  Coalition......................................................    27
Douglas R. Busdeker, Director, Ohio AgriBusiness Association.....    27
Chad W. Lord, Policy Director, Healing Our Waters--Great Lakes 
  Coalition......................................................    27

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Chris Korleski...................................................    50
Jose Alfredo Gomez...............................................    58
Tony Kramer......................................................    80
Jon W. Allan.....................................................    84
Hon. John Dickert................................................    90
Ed Wolking, Jr...................................................    99
Douglas R. Busdeker..............................................   103
Chad W. Lord.....................................................   106

                       SUBMISSIONS FOR THE RECORD

Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, request to submit the following:

    Letter of August 28, 2015, from David A. Ullrich, Executive 
      Director, Great Lakes and St. Lawrence Cities Initiative, 
      to Hon. Thad Cochran, Chairman, Senate Committee on 
      Appropriations, et al......................................   117
    Letter of September 28, 2015, from Matthew D. Chase, 
      Executive Director, National Association of Counties, et 
      al., to Hon. Thad Cochran, Chairman, Senate Committee on 
      Appropriations, et al......................................   119
    Letter of September 23, 2015, from G. Tracy Mehan III, 
      Executive Director for Government Affairs, American Water 
      Works Association, to Hon. Harold Rogers, Chairman, House 
      Committee on Appropriations, et al.........................   121
    Letter of September 15, 2015, from John C. Hall, Executive 
      Director, and Christopher Rissetto, General Counsel, Center 
      for Regulatory Reasonableness, to Hon. Harold Rogers, 
      Chairman, House Committee on Appropriations, et al.........   123
    Letter of September 30, 2015, from Adam Krantz, CEO, National 
      Association of Clean Water Agencies, to Hon. Bob Gibbs, 
      Chairman, and Hon. Grace F. Napolitano, Ranking Member, 
      Subcommittee on Water Resources and Environment............   158
Jon W. Allan, Chair, Great Lakes Commission, submission of letter 
  addressed to him and received September 28, 2015, from Gina 
  McCarthy, Administrator, U.S. Environmental Protection Agency..    44

                        ADDITIONS TO THE RECORD

Letter of October 14, 2015, from Steve Moyer, Vice President of 
  Government Affairs, Trout Unlimited, to Hon. Bob Gibbs, 
  Chairman, and Hon. Grace F. Napolitano, Ranking Member, 
  Subcommittee on Water Resources and Environment................   160
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
 THE GREAT LAKES RESTORATION INITIATIVE: A REVIEW OF THE PROGRESS AND 
                CHALLENGES IN RESTORING THE GREAT LAKES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 30, 2015

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2156, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. The Subcommittee on Water 
Resources and Environment will come to order.
    We welcome our panels. We have two panels today, but we 
will first have some opening remarks.
    The hearing today is about the Great Lakes Restoration 
Initiative. It's a review of progress and challenges in 
restoring the Great Lakes.
    The Great Lakes, of course, are a vital source for both the 
United States and Canada to move goods; supply drinking water 
for industrial and agricultural purposes, a source of 
hydroelectric power, and swimming and other recreational 
activities.
    But the industrialization and development of the Great 
Lakes over the past 200 years has had an impact on water 
quality in the Great Lakes.
    The Great Lakes are a high priority to our Members from 
Minnesota, Wisconsin, Michigan, Illinois, Indiana, Ohio, 
Pennsylvania and New York, particularly in those districts that 
border the lakes. However, the Great Lakes are also important 
to our entire Nation.
    The Great Lakes are the largest surface freshwater system 
on the earth, with 6 quadrillion gallons of water. The Great 
Lakes account for approximately 20 percent of the world's 
freshwater supply and approximately 90 percent of the U.S. 
freshwater supply.
    Thirty-five million people live in the Great Lakes region, 
representing roughly one-tenth of the U.S. population and one-
quarter of the Canadian population. The lakes are the primary 
water supply for most of these people.
    The Great Lakes constitute the largest inland water 
transportation system in the world, and have played an 
important role in the economic development of both the United 
States and Canada.
    According to some estimates, the Great Lakes help support 
more than $200 billion a year in economic activity in the 
region, and contribute nearly a quarter of the Nation's exports 
and 27 percent of the U.S. gross domestic product. Over 200 
million tons of cargo are shipped annually through the Great 
Lakes.
    The Great Lakes present a unique environmental challenge. 
Legacy issues, including the buildup of toxic substances in 
lake sediments in areas of concern, and the introduction of 
invasive plant and animal species, are impacting the Great 
Lakes. More than 180 invasive aquatic species have become 
established in the Great Lakes, including at least 25 major 
nonnative species of fish and zebra mussels, which invade and 
clog water intake pipes, costing water and electric generating 
utilities $100 million to $400 million a year in prevention and 
remediation efforts.
    Efforts to improve the Great Lakes water quality and 
restore the health of the Great Lakes ecosystem are proceeding 
through cooperative efforts with Canada as well as through the 
efforts of numerous Federal, State, tribal, local, and private 
parties.
    The EPA [Environmental Protection Agency], Army Corps of 
Engineers, Fish and Wildlife Service, the National Oceanic and 
Atmospheric Administration, the U.S. Geological Survey, the 
Natural Resources Conservation Service, the Great Lakes States, 
local communities, industry, and other parties all are 
involved. With so many parties involved in trying to restore 
the Great Lakes, coordination of the effort can be difficult.
    To improve coordination, in 2004, the President signed an 
Executive order creating the Great Lakes Interagency Task 
Force. The Executive order called for the development of 
outcome-based goals like cleaner water, sustainable fisheries, 
and system biodiversity, and called on the task force to ensure 
Federal efforts are coordinated and target measurable results.
    The task force, under the lead of EPA, brings together 11 
Federal agencies responsible for administering more than 140 
different programs in the Great Lakes region, to provide 
strategic direction on Federal policy, priorities, and programs 
for restoring the Great Lakes.
    Congress has enacted more than 30 Federal laws specifically 
focused on Great Lakes restoration and there are currently more 
than 200 programs that provide funding and resources to Great 
Lakes States for restoration activities.
    In 2010, the task force released an action plan, as part of 
the new Great Lakes Restoration Initiative, to accelerate 
efforts to protect and restore the Great Lakes. More than 2,000 
projects have been funded to date through the first action 
plan.
    In September 2014, the Federal agencies released an updated 
action plan II, which summarizes the actions that the Federal 
agencies plan to implement during fiscal years 2015 through 
2019, using Great Lakes Restoration Initiative funding.
    This action plan aims to strategically target the five 
biggest threats to the Great Lakes ecosystem and to accelerate 
progress toward long-term goals. The five focus areas in 
summary include: toxic substances, invasive species, nonpoint 
source pollution, habitat restoration, and accountability and 
education.
    Since the beginning of the Great Lakes Restoration 
Initiative, there has been a concern voiced by some that 
restoration activities have slowed or even been halted due to a 
lack of coordination among the Federal agencies that encompass 
the task force. Other critiques include a lack of communication 
between the Federal task force and their partners in State 
governments.
    In response to my requests, the Government Accountability 
Office conducted a review of Great Lakes Restoration Initiative 
implementation and prepared reports of its findings in 2013 and 
July of this year.
    Our colleague, Congressman David Joyce, introduced H.R. 223 
to amend the Great Lakes program provisions under section 118 
of the Clean Water Act to formally authorize the Great Lakes 
Restoration Initiative for 5 years, and to carry out projects 
and activities for Great Lakes protection and restoration.
    Under this legislation, the Environmental Protection Agency 
is to collaborate with other Federal partners, including the 
Great Lakes Interagency Task Force, to select the best 
combination of projects and activities for Great Lakes 
protection and restoration.
    This hearing today is intended to review the progress of 
the Great Lakes Restoration Initiative and to hear from 
witnesses on the implementation of the GLRI program and the 
types of improvements that need to be made to the program.
    I look forward to hearing from the witnesses, and at this 
time I recognize my ranking member from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Chairman Gibbs, for today's 
hearing on the Great Lakes Restoration Initiative, and thus 
providing the subcommittee with a chance to review the progress 
made in the restoration of one of our Nation's greatest 
resources, the Great Lakes.
    Welcome to our witnesses and I look forward to hearing your 
testimony and to engaging dialogue on this very successful 
program.
    The Great Lakes Restoration Initiative, known as GLRI, was 
organized in 2010 to coordinate the multitude of efforts 
already underway to protect and restore the Great Lakes, the 
world's largest system of fresh surface water and the source of 
drinking water for over 40 million Americans.
    As we can imagine, the economic importance of the Great 
Lakes to the country cannot be overstated. The 4.3 million 
recreational boats registered in the Great Lakes alone create 
nearly $16 billion in economic activities each year. That 
supports 107,000 jobs annually.
    Specifically, the program was created to clean up toxins 
and address areas of concern, combat invasive species, of which 
I am very interested in how you combat the quagga mussel issue 
because that's California's biggest issue and some of the 
Western States; to protect watersheds from pollutant latent 
runoff; restore wetlands and track progress; education, 
especially on invasive species, I think; and collaboration with 
strategic partners, including State and local governments and 
other stakeholders.
    During the first 5 years of this program, $1.68 billion of 
Federal funding was allocated to over 2,100 projects that were 
implemented to improve water quality, control or eradicate 
harmful, invasive species, and restore valuable ecosystems.
    In that time and because of Federal support, the Great 
Lakes Restoration Initiative has enjoyed the following 
accomplishments:
    Five areas of concern have been removed from the list of 
contaminated areas.
    Forty-two beneficial use impairments in 17 areas of concern 
were removed.
    Target level control populations have been reached for 
multiple invasive species, including the bighead carp, sea 
lamprey, and emerald ash borer. Interesting.
    Federal and State local partners increased the number of 
acres of farmland enrolled in agricultural conservation 
programs in priority watersheds by more than 80 percent.
    More than 100,000 acres of wetlands and 48,000 acres of 
coastal, upland and island habitat are now protected.
    While much more work remains to be done, these are 
demonstrable successes, and I commend today's witnesses for 
their dedication to the success of this program.
    In September 2013, GAO [U.S. Government Accountability 
Office] released a report recommending EPA develop a more 
comprehensive and useful progress assessment tool for 
demonstrating the program's accomplishment. Understand that we 
look at some of these things, and we want to understand it and 
not have to ask questions about what does it mean.
    GAO found that the GLRI monitoring system at the time may 
have been deficient, but also found as GAO and others have 
noted that quantifying overall restoration progress in the 
Great Lakes is a very difficult task and that it's often 
impossible to link specific environmental changes to specific 
programs or projects, which some are long term.
    Again, earlier this year the GAO concluded an extensive 
study of the use of these funds. It examined the amount of the 
funds available for projects and processes used by GLRI to 
identify projects and the GLRI's reporting tools.
    I am very pleased to say that EPA took action to address--
thank you very much--the recommendations made by the draft GAO 
report prior to the release of the report and, in doing so, 
established a new system for entering data and created new data 
control methods.
    Having undertaken these efforts, EPA and its partners will 
be better able to track and demonstrate the success of the 
program.
    So in the 5 short years since this program's inception, 
communities throughout the Great Lakes region have enjoyed 
measurable results that have made a difference in the lives of 
their citizens and their economy.
    One might ask what has made the difference, and to answer 
this question, I point to the GAO report published in September 
2004, which found that the lack of clearly defined 
organizational leadership posed a major obstacle and that 
coordinating existing restoration efforts across the many 
participating organizations was a significant challenge.
    So we need to be able to address that so that we can 
understand it when we are able to go through and look at what 
improvements and what challenges have been addressed.
    I would argue that today you have overcome these 
challenges. Simply put, this is one of the most influential, 
coordinated interagency efforts in the country and stands as an 
example of what we can achieve when multiple partners agree, 
work together toward a common goal, politics aside.
    Again, I welcome our witnesses and thank you for your 
testimony.
    And, Mr. Chairman, I yield back.
    Mr. Gibbs. Thanks.
    Before I recognize our witnesses, we have a little bit of 
housekeeping. I ask unanimous consent that the hearing record 
be kept open for 30 days after this hearing in order to accept 
written testimony for the hearing record. Is there objection?
    [No response.]
    Mr. Gibbs. Without objection, so ordered.
    I also ask unanimous consent that written testimony 
submitted on behalf of the following parties be included in 
this hearing record: David Ullrich, executive director of the 
Great Lakes and St. Lawrence Cities Initiative; Clarence 
Anthony, the CEO and executive director of the National League 
of Cities; Matthew Chase, the executive director of the 
National Association of Counties; Tom Cochran, the CEO and 
executive director of the U.S. Conference of Mayors; Joanna 
Turner, the executive director of the National Association of 
Regional Councils; Tracy Mehan, the executive director for 
government affairs for the American Water Works Association; 
John Hall, the executive director of the Center for Regulatory 
Reasonableness; Christopher Rissetto, general counsel for the 
Center for Regulatory Reasonableness; and Adam Krantz, the CEO 
of the National Association of Clean Water Agencies.
    Is there objection?
    [No response.]
    Mr. Gibbs. Without objection, so ordered.
    Today we have two panels. Our first panel is Mr. Chris 
Korleski. He is the Director of the Great Lakes National 
Program Office, the U.S. Environmental Protection Agency in 
Chicago, and also a former director of the Ohio EPA when I was 
in the legislature.
    We also have Mr. Jose Gomez. He is the Director of Natural 
Resources and Environment of the U.S. Government Accountability 
Office in Washington, DC.
    And Mr. Tony Kramer, who is the Acting Regional 
Conservationist for the Northeast region of the National 
Resources Conservation Service in Washington, DC.
    Welcome, panelists, and Mr. Korleski, the floor is yours.
    And pull it up closer. In this room sometimes it is hard to 
hear.

  TESTIMONY OF CHRIS KORLESKI, DIRECTOR, GREAT LAKES NATIONAL 
  PROGRAM OFFICE, U.S. ENVIRONMENTAL PROTECTION AGENCY; JOSE 
  ALFREDO GOMEZ, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND TONY KRAMER, ACTING 
 REGIONAL CONSERVATIONIST, NORTHEAST REGION, NATURAL RESOURCES 
                      CONSERVATION SERVICE

    Mr. Korleski. Is the volume OK? Can everyone hear me?
    Well, good morning, Chairman Gibbs, Ranking Member 
Napolitano, and members of the subcommittee. My name is Chris 
Korleski, and I am pleased to serve as the Director of U.S. 
EPA's Great Lakes National Program Office, or as we call it, 
GLNPO.
    I am very pleased to be here this morning to discuss the 
remarkable progress that has been made under the Great Lakes 
Restoration Initiative, or as we know it, the GLRI.
    The GLRI was launched in 2010 to accelerate efforts to 
protect and restore the largest system of freshwater in the 
world--to provide additional resources to make progress toward 
the most critical long-term goals for this important ecosystem.
    Since its inception, the GLRI has been a catalyst for 
unprecedented Federal agency coordination to the GLRI 
Interagency Task Force and the GLRI Regional Working Group, 
both of which are led by EPA. This unprecedented coordination 
has led to unprecedented results.
    During the first 5 years of the initiative, GLRI resources 
have supplemented agency-based budgets to fund over 2,600 
projects in five focus areas.
    Focus Area 1, toxic substances in areas of concern. Federal 
agencies and their partners delisted three areas of concern, 
what we call AOCs, and completed all of the physical work that 
will lead to the delisting of three additional AOCs. That is a 
major change from the 25 years before the initiative when only 
one AOC was cleaned up and delisted.
    It is our hope that we can keep this momentum going and 
ultimately achieve the delisting of all the remaining AOCs.
    Focus Area 2, invasive species. Federal agencies and their 
partners engaged in an unprecedented level of activity to 
prevent new introductions of invasive species, including Asian 
carp, into the Great Lakes ecosystem. Asian carp are a 
significant threat to the ecological health of the Great Lakes 
and its multibillion-dollar sports fishery, and the GLRI 
provides support to the Asian Carp Regional Coordinating 
Committee to prevent bighead and silver carp from becoming 
established in the Great Lakes ecosystem.
    To date monitoring has not found any established, self-
sustaining populations of silver or bighead carp in the Great 
Lakes. Nevertheless, the threat of Asian carp entering the 
Great Lakes continues, and the Federal partners are eager to 
continue the work necessary to keep them out of the Great 
Lakes.
    Focus Area 3, nearshore health and nonpoint source 
pollution. Federal agencies and their partners targeted 
activities to reduce phosphorus runoff from farmland which 
contributes to harmful algal blooms in western Lake Erie, 
Saginaw Bay, and Green Bay.
    Federal agencies used GLRI support to increase the number 
of acres of farmland enrolled in agricultural conservation 
programs in GLRI priority watersheds by more than 70 percent.
    Focus Area 4, habitat and wildlife protection and 
restoration. Federal agencies and their partners protected, 
restored and enhanced more than 100,000 acres of wetlands and 
48,000 acres of coastal, upland and island habitat. Over 500 
barriers were removed or bypassed in Great Lakes tributaries 
enabling access by fish and other aquatic organisms to over 
3,400 additional miles of river.
    These activities have accelerated the restoration of native 
fish and wildlife populations to self-sustaining levels.
    Focus Area 5, accountability, education, monitoring, 
evaluation, communication and partnerships. Maybe you can see 
why we changed the name in the next action plan.
    Federal agencies and their partners implemented ``teach the 
teacher'' activities and helped science teachers throughout the 
basin incorporate Great Lakes-specific material into their 
class curricula. But what's next?
    Well, the first 5 years of the GLRI have achieved 
remarkable progress. The Federal agencies are already well 
underway implementing the GLRI Action Plan II, which summarizes 
the actions that Federal agencies will implement during fiscal 
years 2015 through 2019. These actions will build on 
restoration and protection work carried out under the first 
action plan with a continuing focus on cleaning up AOCs, 
preventing and controlling invasive species, reducing nutrient 
runoff, and restoring habitat.
    We have modified Focus Area 5, and while we will continue 
to educate educators about the Great Lakes, Focus Area 5 now 
more directly incorporates an adaptive management approach into 
the GLRI's implementation.
    It also requires that GLRI projects take into account the 
need for resiliency in the face of climate change.
    Action plan II is tighter and more focused than action plan 
I in large part because it incorporates suggestions for 
strengthening the GLRI that were contributed by the Great Lakes 
Advisory Board, U.S. EPA Science Advisory Board, GAO, the 
Congressional Research Service, States, tribes, municipalities, 
and the general public.
    We are committed, devoted to improving the implementation 
of the initiative and have recently adopted new budgeting and 
planning processes that will provide for a closer working 
relationship between Federal agencies and their State and 
tribal partners to ensure that appropriate projects are being 
prioritized and implemented.
    Thank you, Chairman Gibbs, Ranking Member Napolitano, and 
members of the committee. I look forward to your questions.
    Mr. Gibbs. Thank you.
    Mr. Gomez, the floor is yours.
    Mr. Gomez. Chairman Gibbs, Ranking Member Napolitano, and 
members of the subcommittee, good morning. I am pleased to be 
here today to discuss our work on the Great Lakes Restoration 
Initiative.
    The Great Lakes, as can be seen in the screens, is the 
largest system of freshwater in the world, and it provides 
economic and recreational benefits to millions of people. 
Decades of industrial and agricultural activities in the region 
have left a legacy of contamination.
    In addition, more than 180 nonnative species have become 
established in the Great Lakes, some of which have caused 
extensive ecological and economic damage.
    The Great Lakes Restoration Initiative, as has been noted, 
was created to accelerate restoration by addressing issues such 
as water quality contamination and invasive species that 
continue to threaten the health of the Great Lakes ecosystem. 
The restoration is overseen by the Great Lakes Interagency Task 
Force and is chaired by the Environmental Protection Agency.
    So my statement today summarizes the results of our two 
reports on the topic. I would like to make three key points 
about the GLRI, the initiative: first, the funding and 
monitoring and reporting; two, the process used to identify 
restoration work; and, three, information available about Great 
Lakes restoration project activities and results.
    The first point is that nearly all of the $1.68 billion in 
Federal funds in fiscal years 2010 to 2014 have been allocated, 
and as it can be seen in the next slide, EPA and the task force 
agencies have made funding available to a range of recipients. 
We found that the Great Lakes Interagency Task Force agencies 
conduct restoration work themselves or by awarding funds to 
recipients through financial agreements, such as grants, 
cooperative agreements or contracts.
    EPA and the other 10 agencies have since expended $1.15 
billion for over 2,100 projects.
    With regard to monitoring and reporting, we found that some 
information on restoration projects in EPA's database is 
inaccurate and may not be complete, which may prevent EPA from 
producing comprehensive or useful assessments of progress.
    We recommended that EPA capture more complete information 
on progress, which the agency did. In May of 2015, EPA replaced 
its old database with a new information system.
    Second, with regards to the process for selecting each 
agency's Great Lakes restoration work, this process has evolved 
since fiscal year 2010 to emphasize interagency discussion. 
Originally, each agency made its own project and funding 
decisions in agreement with the task force.
    Now, multiple agency subgroups discuss and decide what work 
should be done. In fiscal year 2012, the task force created 
subgroups to discuss and identify work on three priority 
issues. The first issue was cleaning up severely degraded 
locations, called areas of concern, which we have heard about 
already.
    Number two is preventing and controlling invasive species.
    And three is reducing nutrient runoff from agricultural 
areas.
    According to EPA, the focus on priority issues allowed for 
two areas of concern, the White Lake and Deer Lake areas in 
Michigan, to be targeted for accelerated cleanup. Both were 
delisted in 2014.
    Third, the task force has made some project information 
available to Congress and the public in three accomplishment 
reports and on its Web site.
    In addition, individual agencies collect information on 
activities and results, although this information is not 
collected and reported by EPA.
    Of the 19 projects that we reviewed, 8 reported results 
directly linked to restoration, such as improved methods for 
capturing sea lamprey, an invasive species that can kill up to 
40 pounds of fish in its lifetime. The remaining 11 reported 
results that can be indirectly linked to restoration. That is, 
the results may contribute to restoration over time.
    In summary, the U.S. has committed enormous resources to 
restore the health of the Great Lakes ecosystem with some 
progress. Currently the restoration effort is in a period of 
transition, as EPA and the task force agencies are using a new 
action plan, new subgroups to identify work in funding, and a 
new system to collect information on projects.
    Great Lakes restoration is an ongoing, long-term effort. As 
such, it can benefit from continued congressional oversight.
    Mr. Chairman, Ranking Member Napolitano, and members of the 
subcommittee, this completes my statement. I would be pleased 
to answer questions.
    Mr. Gibbs. Thank you.
    Mr. Kramer, the floor is yours. Welcome.
    Mr. Kramer. Thank you and good morning. Mr. Chairman, 
Ranking Member, and distinguished members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss the Great Lakes Restoration Initiative and the role of 
the Natural Resources Conservation Service within the U.S. 
Department of Agriculture.
    At NRCS, we know that voluntary private lands conservation 
is making a difference so that producers can sustain highly 
productive agriculture while making progress protecting and 
improving a Nation's natural resources. As Acting Regional 
Conservationist for the Northeast region, I have the privilege 
of serving multiple States, including Ohio and even Michigan.
    I was raised on a farm in northwest Ohio and graduated from 
the Ohio State University with a bachelor's degree in 
agriculture. I have worked with NRCS in many capacities over 30 
years, and I understand personally the conservation work my 
agency performs on private lands.
    This is a great time for conservation, and I welcome the 
opportunity to share this with you today.
    At NRCS, our conservationists work with State and local 
partners, as well as private organizations to deliver 
conservation, technical, and financial assistance to private 
landowners on a purely voluntary basis. In fiscal year 2014, 
NRCS provided technical assistance to over 135,000 customers 
nationwide to address natural resource objectives on almost 60 
million acres of farm, ranch and forest land.
    NRCS technical and financial assistance is delivered to 
private landowners primarily through programs authorized by the 
Farm bill, which include the Environmental Quality Incentives 
Program, the Conservation Stewardship Program, and the 
Agricultural Conservation Easement Program.
    This assistance helps producers plan and implement a 
variety of conservation practices, such as cover crops, no-
till, removing invasive species and restoring wetlands.
    GLRI complements the significant investment made by NRCS 
within the Great Lakes region. Since 2010 and through 2014, 
GLRI has provided an additional $106 million in financial and 
technical assistance for conservation through the interagency 
agreement between NRCS and EPA. This was used to fund over 
1,500 contracts with producers committing to implement 
conservation practices in over 300,000 acres within the Great 
Lakes Basin and to provide direct technical assistance to 
producers and landowners.
    NRCS works very closely with partners across the country 
and in the Great Lakes to maximize the Federal investment and 
leverage that with non-Federal contributions. Within the 
context of GLRI, between fiscal years 2010 and 2014, NRCS has 
leveraged about $7 million of the GLRI funds in agreements with 
partners to increase the impact of the Federal investment in 
conservation.
    Mr. Chairman and members of the subcommittee, thank you for 
this opportunity to appear before you today. Conservation 
continues to be a solid investment in our Nation's future. GLRI 
and other NRCS conservation programs and activities supported 
by Congress and the administration have demonstrated success to 
helping farmers, ranchers and private forest owners achieve 
their production and operational goals in balance with nature, 
with the natural resource objectives which provide benefits for 
the rural communities and the Nation as a whole.
    I will be very happy to respond to any of your questions at 
this time.
    Thank you.
    Mr. Gibbs. I thank you.
    And I will start out with questions.
    First of all, I want to thank Mr. Gomez for the report that 
we requested from your office. It was very helpful.
    I recognize that the EPA is implementing some of what you 
mentioned and you also mentioned in your report that they 
implemented a big initiative before the final report came out 
because of the draft report, and I want to talk about that just 
for a minute and then I will get to another issue.
    In your report you talk about sharing future success and 
the challenges, and needing the EPA to address the issue. It is 
about communication between the different agencies and States. 
Mr. Korleski created subgroups from my understanding, the way I 
read this, and so hopefully the intent is that the subgroups 
are working together, communicating, because what we have 
heard, and I think what Mr. Gomez and the study determined, is 
that one hand did not know what the other hand was doing.
    So do you want to elaborate a little bit about the 
functioning and the mechanism going forward with the subgroups?
    Mr. Korleski. Mr. Chairman, thank you.
    Yes, I think what my colleague was referring to is that in 
the early years of GLRI there was more of what we would call an 
allocation approach where each agency would have its own 
projects that it would like to do, and then we would get 
together and talk about how much money should go to each agency 
to let them do their projects.
    I am simplifying, but that is the way it worked.
    I think come 2011, there was a consensus that, wait a 
minute; this is not the best way to do this. This idea of 
having agencies sort of saying, ``We want to do these 
projects,'' was not we think as good as saying, ``Let us all 
work together and figure out, looking at that ecosystem as a 
whole, what is the work that should be prioritized without 
regard to what this agency would like to accomplish or what 
that agency would like to accomplish. What should we as the 
GLRI accomplish?'' and prioritizing that.
    So that is what resulted in, I think, much more of a 
collaborative approach. The subgroups were created to focus on 
what we agreed were priority areas like AOCs.
    Mr. Gibbs. Excuse me. The subgroups would consist of 
different agencies, the EPA, NOAA [National Oceanic and 
Atmospheric Administration] and all?
    Mr. Korleski. So if I understand your question, when I 
think of a subgroup, I think of a subgroup within the Regional 
Working Group. So the Regional Working Group made up of EPA, 
NOAA, the Corps of Engineers. There are representatives from 
those agencies on those subgroups for, again, AOCs, invasive 
species, whatever it might be.
    So that way all of the agencies were focused.
    Mr. Gibbs. I think that is a good way to go forward.
    Mr. Korleski. Yes.
    Mr. Gibbs. That was one of the criticisms of the report.
    But to take that further, I think the Great Lakes 
Restoration Initiative Action Plan for 2015 to 2019 does not 
include targets to measure any progress. If the EPA and the 
task force do not have targets, how are they going to measure?
    You do not have in this new action plan specific targets, 
goals. Am I understanding that right?
    Mr. Korleski. Mr. Chairman, no, there are targets in the 
action plan. If I can briefly, in the new action plan, 
specifically, there are five focus areas. There are 12 
objectives. There are 22 commitments. There are 34 measures of 
progress, and 10 of those measures of progress have annual 
targets where we are actually trying to hit numbers, for 
example, the number of AOCs where all of the work has been 
completed or the number of BUIs [beneficial use impairments] 
removed.
    So there are most definitely targets and objectives within 
action plan II.
    Mr. Gibbs. OK. I wanted to ask a question on the algae 
issue in western Lake Erie. Can you describe to the 
subcommittee how the EPA shows deference to the expertise of 
other Federal agencies for funding these activities?
    For instance, the EPA recognizes NOAA as the agency with 
the expertise related to harmful algal blooms. Why is it 
important that that one agency not be given sole discretion 
over the GLRI activities?
    Mr. Korleski. Mr. Chairman, I think a number of the 
agencies have expertise in areas pertinent to harmful algal 
blooms. NOAA, for example, I think has great expertise in 
areas, such as satellite monitoring and monitoring the bloom.
    In fact, after the Toledo drinking water crisis in 2014, we 
very quickly freed up about $12 million in GLRI funds to 
devote. For example, some of that money went to NOAA so they 
could improve their ability to monitor algae and microsystem 
levels in the Toledo area. We provided money to USGS [U.S. 
Geological Survey] to do more stream monitoring, to measure the 
amount of phosphorus getting into Lake Erie, which USGS is 
extremely good at.
    NRCS was provided with additional funds because our 
colleagues at NRCS are very good at getting----
    Mr. Gibbs. My last question I wanted to just go to Mr. 
Kramer.
    What would it take to reduce the amount of nutrients 
entering the Great Lakes to prevent the algae blooms that have 
occurred in the last few years?
    Mr. Kramer. That is a good question. Eliminating it, I do 
not know if that is going to be possible. I think we have an 
opportunity here to reduce the impact, maybe the duration.
    Just since 2010 to 2013, the GLRI funding that was provided 
to NRCS has reduced, we estimate, the nitrogen entering into 
the Great Lakes by over 3.5 million pounds and over 600 pounds 
of phosphorus.
    Now, the algal blooms still develop. There are many other 
sources. It is not just agriculture.
    Mr. Gibbs. Yes.
    Mr. Kramer. There's residential. There's commercial. 
There's what we call legacy phosphorus, which there is 
phosphorus sitting in Lake Erie, you know, in the sediment, on 
the ground or under the surface, and turbidity, water, air 
temperature, water depth, sunlight, all have an impact on 
whether that comes up.
    Mr. Gibbs. Are we noticing more dissolved phosphorus 
compared to maybe phosphorus attached to the sediment? Is 
dissolved phosphorus more of an issue than it was in previous 
years?
    Mr. Kramer. I can't answer that. I do not know that we have 
made that distinction, Congressman.
    Mr. Gibbs. OK.
    Mr. Kramer. But we have reduced and we are looking at other 
methods and processes. We do know that a lot of the dissolved 
phosphorus gets out in the tile.
    Mr. Gibbs. Pardon?
    Mr. Kramer. Gets out in the tile, through the farms, and as 
of right now Ohio has just with assistance from GLRI funding 
entered into agreement with the Ohio Farm Bureau to do 
demonstration farms, you know. So there are a lot of different 
things going on.
    Mr. Gibbs. Yes, I know. The Ohio Farm Bureau put up $1 
million towards that.
    Mr. Kramer. Yes.
    Mr. Gibbs. This is my last question before I yield to my 
ranking member.
    On these programs, can you kind of elaborate, voluntary 
versus regulatory, mandatory? You know, what is the best fit? 
What is the best way to address this issue?
    Mr. Kramer. Well, for me it is voluntary, at least when it 
comes to private landowners, private agricultural farms. I 
think the voluntary approach works.
    One good example of why it works, and this is not just in 
the Western Lake Erie Basin or the Great Lakes but across the 
country, every single one of the programs that NRCS offers is 
well oversubscribed. We have backlogs forever.
    People want to participate. They want to put conservation 
on their ground, and they want some assistance to do that, and 
we have shown that it does work.
    Mr. Gibbs. And I will concur with that, being a farmer, and 
I would also just in closing say that, you know, farmers drink 
the water first.
    Mr. Kramer. That is right.
    Mr. Gibbs. I mean, it is on the land because all of their 
wells are where they are getting it, and it is just critical. 
And they want to do the best for the environment. We have seen 
that with best management practices, no-till, and a bunch of 
things that are happening.
    And my concern has been, especially with the WOTUS rule, 
when you come down with a heavy hammer at some point you just 
overburden them with redtape and bureaucracy. They will throw 
their hands up in the air and they are not going to do what 
they would have done voluntarily. I am really concerned with 
the WOTUS rule that we can actually go backwards in water 
quality with the strides we have made.
    So I yield to my ranking member.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    And on that note, Mr. Kramer, one of the things that a 
pilot project in California is looking at is on-site new 
technology that might clean the runoff, recycle the runoff 
right from the farms.
    Is there anything being looked at or touted or at least 
considered as part of the assistance to the farmers?
    Mr. Kramer. The one thing that we are doing that is not 
actually cleaning, but what we called edge of field monitoring, 
which we now do within NRCS. That allows, on the farms, they 
can monitor the nutrient loads that are coming off that farm.
    We have looked at things such as bioreactors and things of 
that nature in the ground, subsurface, to clean it, but what 
you are referring to I am not aware of, but it is a 
possibility. We could look at those different methods and 
processes, and within NRCS what we typically do is take a look 
at something like that. If it provides merit, we can try it on 
a pilot basis.
    Mrs. Napolitano. Well, I will check, but it was supposed to 
be a pilot in Bakersfield by the Costner, the group that did 
the Bridge petroleum spill.
    Mr. Kramer. OK.
    Mrs. Napolitano. So that might bring some change.
    In the algae bloom, is not probably the temperature also 
responsible for the creation of a lot more of the algae?
    Mr. Kramer. Yes, yes. The water temperature, air 
temperature. I think we avoided it a lot this year because we 
did not have as much duration of hot, humid days, and we had 
some winds that kind of, you know, stirred the lake a little 
bit. At least that is from the reports from NOAA that we 
receive on a pretty regular basis.
    Mrs. Napolitano. And I notice, and I am sorry but my time 
is running, and I want to be sure that I take in all the 
questions that I have in mind, but in the runoff, going back to 
the runoff, the fact that there are more effective ways of 
partners working together to combat the runoff, what else is 
being done to be able to help farmers and the ability to 
restrict the amount of runoff into the streams and rivers?
    Mr. Kramer. Well, I think, you know, one of the big things 
that we do is not just controlling the runoff. It is what is 
being applied.
    Mrs. Napolitano. OK.
    Mr. Kramer. You know, only apply what you absolutely need 
through our nutrient management standard specification, which 
is a widely used practice throughout the basin and throughout 
the Great Lakes.
    So what is being delivered on the field should be 
controlled first, and a lot of producers are doing that.
    Mrs. Napolitano. Of course, there are great results, but 
some are saying that GLRI is going after the low-hanging fruit, 
and what remains is going to be a bigger challenge. Can you 
explain?
    Mr. Kramer. I believe maybe it is kind of what I referred 
to before. We have developed a Conservation Effects Assessment 
Project that we have done, and our scientists have estimated 
that for Western Lake Erie Basin alone, if we treated every 
single agricultural farm, we would still only reduce the 
nutrients by 40 percent.
    So I guess what I am trying to say is that maybe what that 
statement is referring to is even in doing everything that we 
could do, there are still so many other factors involved that 
we are not going to be able to get there.
    Mrs. Napolitano. Do you have an idea of how many farms are 
voluntary for partners? Is it a percentage?
    You mentioned it was voluntary.
    Mr. Kramer. Yes, yes. I do not have that with me, but we 
could provide that.
    Mrs. Napolitano. It would be nice to know.
    Mr. Kramer. The number of producers in the Great Lakes that 
are actually working with us, yes. We could provide that 
information.
    Mrs. Napolitano. Thank you.
    Mr. Kramer. Yes.
    Mrs. Napolitano. Mr. Korleski, your testimony notes that 
action plan II incorporates fresh approaches. Can you describe 
the science-based adaptive framework you plan to use and when 
do you feel that it is going to be implemented?
    Mr. Korleski. Yes, Ranking Member. I think adaptive 
management is a fancy way of saying learn as we go, learn from 
your mistakes, learn from what works, learn from what does not 
work.
    Mrs. Napolitano. But who looks at those?
    Mr. Korleski. What is that?
    Mrs. Napolitano. Who looks? Who determines what works and 
what is not working?
    Mr. Korleski. The agencies implementing the projects.
    Mrs. Napolitano. OK.
    Mr. Korleski. So under the action plan, the way this should 
work is when projects are implemented, the agencies 
implementing them should look at project results and look at 
project impacts and look at, again, what worked.
    If you did a project, if we tried something as a pilot 
project and it did not work, we have to remember that, and we 
have to say, ``Yeah, that did not work. Do not do that again.''
    Mrs. Napolitano. But what is turnaround time? Do not forget 
Government works very slowly.
    Mr. Korleski. Well, we do adaptive management really over 
the course of two different cycles. So we do an action plan 
every 5 years. So one of the things that we do is when we're 
drafting a new action plan, as we did in the second action 
plan, we looked about what worked, what did not work, what kind 
of targets did we have in the first action plan that were not 
realistic, and we did not have the technology or we did not 
have good measurements, and come up with a better action plan.
    But I think more importantly, adaptive management is also 
looked at on an annual level when we are actually doing project 
selection because the agencies essentially get together and 
look at the potential universe of projects that could be done 
and say, ``OK. Given what we know, where should we 
prioritize?''
    Mrs. Napolitano. Do you share that information with other 
areas that might have similar problems?
    Mr. Korleski. For example, other geographic areas?
    Mrs. Napolitano. Yes.
    Mr. Korleski. Like the Chesapeake, yes.
    Mrs. Napolitano. OK.
    Mr. Korleski. Yes.
    Mrs. Napolitano. OK. Because that would save some time in 
some people having to reinvent the wheel.
    The other question I have, recently, actually yesterday, 
there was a news release in regard to Line 5, the pipeline, and 
the question, of course, comes up about, according to the 
University of Michigan, it is the worst possible location for 
an oil spill.
    This crude coming out or transfer being out of Canada? You 
are aware of that, I am sure.
    Mr. Korleski. Yes.
    Mrs. Napolitano. And some of the challenges that they may 
face in winter if there is a spill, and apparently there was a 
winter spill test that was very challenging.
    Is there a way to be able to understand? Because I 
understand Senator Stabenow and Congressman Peters have a bill 
to ban crude oil shipments through that region.
    Mr. Korleski. Well, Ranking Member, if I can tell you about 
EPA's rule, maybe that will help clarify.
    Mrs. Napolitano. OK.
    Mr. Korleski. So in region 5 where we are, our response 
office, our Superfund program, is deeply involved in planning 
contingency work, trying to anticipate what can go work, and 
working with PHMSA [Pipeline and Hazardous Materials Safety 
Administration], States, tribal nations, to again make sure----
    Mrs. Napolitano. I know, but that was in summer. The 
program was looking at transportation in summer, but what about 
winter? Because there is a challenge there.
    Mr. Korleski. Ranking Member, I confess I am not that 
familiar with the challenge that occurred in the winter 
exercise. So that is something we can follow up on. But I do 
know that EPA and the Coast Guard would be the first line of 
response in the event of any----
    Mrs. Napolitano. Well, apparently there is another test 
being held early next year. I would like to be able to know the 
results of that because of the protection for that area.
    Mr. Korleski. Yes, Ranking Member. We will be sure to note 
that.
    Mrs. Napolitano. Thank you.
    And then of course, in the past 5 years the program has 
improved the quality in the region and addressed a lot of the 
environmental problems. How is GLRI prepared to produce the 
same result in the next 5 years?
    Mr. Korleski. I am sorry. Could you repeat the question?
    Mrs. Napolitano. How is the GLRI prepared to produce the 
same results in the next 5 years as it has in the past 5 years, 
considering the scope of the problems?
    Mr. Korleski. Ranking Member, I think we actually hope to 
do better in the next 5 years.
    Mrs. Napolitano. Based on your experience?
    Mr. Korleski. Based on the adaptive management approach and 
learning from what we learned the first 5 years. Also the fact 
is, as I mentioned earlier, the agencies I think are 
coordinating much better on identifying priorities. So it is 
not just an agency-by-agency ``let us do what we want.'' I 
think that is going to achieve better and greater results.
    So I think we have learned a lot, and we are working 
together more closely.
    Mrs. Napolitano. Thank you.
    And now I will refer back to my chairman. I have one more 
question for Mr. Gomez. I will hold.
    Mr. Gibbs. Mr. Ribble.
    Mr. Ribble. Good morning, everybody. Thanks for being here. 
I appreciate the work that you are all working on and doing 
this.
    I happen to live in the Lower Fox River Watershed in 
northeast Wisconsin. I live on the shoreline, and so I have 
been able to see in real-time some of the improvements that are 
actually happening. And, Mr. Korleski, can GLRI funds be 
awarded to support partnerships between water systems and the 
agriculture industry?
    And by that I mean you have got both point source and 
nonpoint source issues, and so can there be some combination of 
partnership there and the funds be used in an equal partnership 
with them together?
    Mr. Korleski. So, Mr. Chairman, Mr. Representative, I think 
the short answer is yes. It would depend on how the project was 
organized and who was doing what, but one of the great things 
about the GLRI is that there is flexibility in terms of how we 
award and provide money.
    So I would think that, yes, depending on what was being 
proposed and who was involved, that is something that we could 
do and we could certainly look at it.
    Mr. Ribble. So it is a bit of kind of an exploration of 
ideas, and you are looking at the best ideas, and if someone 
comes up with some type of program that makes sense to you all, 
that would be something you would take a look at?
    Mr. Korleski. Mr. Chairman, Representative, absolutely. The 
one thing that we do not pretend to have is all the answers, 
and we do not pretend that we have got everything down to a 
science. We do not, and we are open to new ideas.
    Mr. Ribble. Are the hypoxic zones in Green Bay similar to 
the ones in Lake Erie?
    Mr. Korleski. So my understanding, I am more familiar with 
the Lake Erie area partly because, frankly, I am from Ohio.
    Mr. Ribble. Yes.
    Mr. Korleski. But I think the problem is the same. I think 
the magnitude of the blooms in the Western Basin of Lake Erie 
have been greater. That is not to minimize what is happening up 
in either the Saginaw Bay or the Fox River area, but the 
problem we believe is caused by the same issue, which is too 
much phosphorus getting into the water, and we think the 
solutions are essentially the same: try to figure out how to 
reduce phosphorus, both dissolved and in other forms, from 
getting into the water.
    Mr. Ribble. Yes. Basically keeping the nutrient on the soil 
and not in the water.
    Mr. Korleski. Where they are needed.
    Mr. Ribble. Ultimately where they are needed to go.
    Mr. Korleski. Where they are needed, yes.
    Mr. Ribble. And, Mr. Kramer, first of all, I want to 
commend the work that your agency has been doing in Wisconsin 
and Lower Fox.
    Mr. Kramer. Thank you.
    Mr. Ribble. One of the things I hear repeatedly from county 
executives in the entire Lake Winnebago, Lower Fox Watershed 
which drains into Green Bay is that they actually could use 
more conservation agents, whether they are agents that are on 
the ground at the county level or with your agency.
    Can GLRI funds be used by county executives to increase 
agency partnership with working with agriculture?
    Mr. Kramer. Yes, they can, and as a matter of fact, NRCS 
has utilized some of the GLRI funding in just such that way.
    In my oral and, I believe, written testimony, it alluded to 
the agreements to extend the Federal contributions. We can 
enter into agreements with soil and water districts, State 
departments of agriculture, and others to put more boots on the 
ground, more folks out there in the field, and we have done 
that in various areas throughout the Great Lakes.
    Mr. Ribble. Because in this watershed, the one I am 
speaking of here in northeast Wisconsin, the 71 CAFOs 
[concentrated animal feeding operations], large farming 
operations, one of the highest density in the country, and 
around 1,500 to 1,600 smaller dairies, and there are a lot of 
animals in this area.
    Mr. Kramer. Yes.
    Mr. Ribble. And reaching out to that many individual dairy 
farmers is a tough task with the number of bodies there, but 
what I have experienced both with your agency and working with 
Wisconsin's dairy industry is that they are anxious to start 
solving this problem. They want to be part of the solution.
    But for some of the smaller dairies, it does become an 
issue of resources. Are funds available for some type of joint 
sharing of equipment, for example, direct injection of manure 
into the soil as opposed to just mass spreading it using water 
as a carrying agent?
    But that equipment is $80,000, $90,000, $100,000. Could it 
be shared by a county over a large area of land so that 
multiple farmers would have access to that type of equipment 
through the grant system?
    Mr. Kramer. Yes, typically the NRCS program, specifically 
EQIP [Environmental Quality Incentives Program], would not 
actually purchase a piece of equipment, but what it would do is 
provide an incentive to those farmers where if they want to go 
out and purchase that together to share it, they could use 
those funds to do that.
    What we are looking for is the activity. What are they 
actually doing on the farm? We are paying an incentive for that 
activity. Now, if that means they have to get a piece of 
equipment or modify it, that is fine, but we definitely stray 
from using the tax dollars to actually purchase a piece of 
equipment which may not be there in 2 to 3 years or it might 
be.
    Mr. Ribble. Sure.
    Mr. Kramer. But there are ways to get to where you are 
going.
    Mr. Ribble. Yes, because when you look at the technologies 
available with low-till equipment, with direct injection of 
manure, the things that will actually keep the nutrient in the 
field, those bear a fair amount of costs.
    Mr. Kramer. Yes, they do.
    Mr. Ribble. And then my final question, and then, Mr. 
Chairman, I will yield back. Mr. Gomez, in your report did you 
guys look at the efficiency of the funding?
    In other words, how much money is going to just the 
administration of the fund itself versus how much is actually 
getting to specific projects?
    Mr. Gomez. Sure. So I mentioned earlier we did look at 19 
projects in detail, and in those projects we did look at the 
amount of money that was going to indirect cost, and we found 
that that varied from zero to 37 percent.
    In the cases where it was zero, it was because the entities 
had not established an indirect cost rate. Those that were 
higher, those tend to be universities that charge a higher 
indirect rate. So that is the way we looked at it in terms of 
the projects, and we looked at, as I said, 19 projects.
    Mr. Ribble. Was there obviously anything that we can do to 
reduce the indirect cost so that more of it actually gets to 
the ground is going to be a better use of this taxpayer 
funding.
    Thank you, and, Mr. Chairman, I yield back.
    Mr. Gibbs. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I have been listening to this very impressive collaboration 
which apparently has bipartisan support even here. I note that 
this Great Lakes restoration effort is not authorized, but it 
has been funded. It appears that the Federal Government is the 
major actor pressing forward, using its full expertise with 
working groups and Federal agencies, and one is left to wonder 
if other areas, and somebody mentioned the Chesapeake, for 
example, if this kind of collaboration and effort driven by the 
Federal Government, the EPA and other agencies is occurring in 
other watersheds or are we hearing a unique effort that has not 
been exported.
    Perhaps Mr. Korleski or Mr. Kramer would be able to speak 
to that.
    Mr. Korleski. Mr. Chairman, Representative, I do know that 
we, for example, have had conversations with the Chesapeake Bay 
program, which has similar problems. They are different, but 
they have nutrient problems that show up in different ways.
    And not that long ago we spent a couple hours on the phone 
with them sharing our practices about what we were trying to do 
to reduce nutrient loadings into water bodies, and that was 
very helpful.
    There is a Chesapeake Bay program within EPA as a separate 
line item in the budget, I believe. So we have worked with 
them. We are aware of other geographic programs which are 
receiving funding from EPA.
    Ms. Norton. Are the results that you obtained repeated 
anywhere else or are we talking about a unique effort?
    I understand there's huge importance, massive importance of 
this major water supply, the Great Lakes. I'm trying to find 
out whether it's unique or not, particularly since it is driven 
by the Federal Government.
    Mr. Korleski. I know that Federal dollars are being 
directed to other programs.
    Ms. Norton. That I know. I am looking at the impressive 
results that have been attained here.
    Mr. Gomez, do you have any notion of whether we are talking 
about a unique effort, completely federally driven, it seems to 
me, by one of the great watersheds. We couldn't do without it.
    Mr. Gomez. Sure, sure.
    Ms. Norton. Would it go anywhere else?
    Mr. Gomez. What I can mention is GAO has actually looked at 
ecosystem restoration efforts around the country. One was 
mentioned earlier, Chesapeake Bay. We have looked there, and 
they have a slightly different organizational structure. The 
Chesapeake Bay States are partners with the Federal agencies 
and other entities are also key partners.
    The Great Lakes are organized slightly differently. We 
looked also at the Florida Everglades restoration efforts in 
years past where, again, it is managed by the State, the Feds, 
and tribes.
    Ms. Norton. Is that not different here? The Federal 
Government is the driver here, is it not?
    Mr. Gomez. Yes, correct.
    Ms. Norton. And one of the problems in the Chesapeake Bay 
is the same huge number of States, but where they are the 
leadership with water the crosses State lines, it does not 
appear to me that we get results anywhere in the ballpark of 
what we are seeing here with this federally driven project.
    Mr. Korleski. Representative, if I may, one of the things 
that I would emphasize is that while the GLRI funding is 
Federal funding and the Great Lakes Interagency Task Force and 
the Regional Working Group are made up of the Federal 
departments, a large reason for the success in the Great Lakes 
Basin is because we do partner very closely with States.
    Ms. Norton. How did you get the States who obviously have 
different interests, just as they do on the Chesapeake Bay, to 
collaborate except for the force of the Federal Government, its 
money and its expertise behind this project?
    Mr. Korleski. Representative, I think it is because they 
recognized the GLRI brought an opportunity for significant 
changes to make an improvement.
    Ms. Norton. The what?
    Mr. Korleski. An opportunity for significant----
    Ms. Norton. And what brought it? What do you say brought 
this opportunity?
    Mr. Korleski. The GLRI and the States recognizing that 
through our grants in providing them with funds and working 
with them, that jointly we could get a tremendous amount of 
work done.
    Ms. Norton. I think it was Federal leadership, Mr. 
Korleski. I think it is very difficult when you say to the 
Chesapeake Bay, the nine States. I mean, there is something 
like that. You get together. This is one of the great wonders 
of the world, and together figure out what to do about it.
    You have your own budgets, your own priorities, and 
everyone speaks about how extraordinary this is, but what you 
do not have is the kind of leadership that the Federal agencies 
have given to this extraordinary project with extraordinary 
results, and you have not been able to name a single other 
project which has had similar results.
    And I would with knowing nothing hazard a guess that it is 
because it has not had the same Federal leadership that this 
project has had.
    Thank you very much, Mr. Chairman.
    Mr. Gibbs. Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman.
    I want to thank Chairman Gibbs and Ranking Member 
Napolitano for holding this hearing and thank the witnesses for 
being here.
    I first of all want to commend you all for the work that 
you are doing and the importance of it. With no pun intended, I 
do have a couple of areas of concern myself that are unrelated 
to pollution at the Great Lakes. One of them is what appears to 
be a rather abrupt shift in programming and in funding, and I 
will start with you, Mr. Korleski.
    You talked about the significance of the unprecedented 
coordination, and I applaud you for that; the unprecedented 
results, and I applaud you for that; and you used that word 
``unprecedented coordination'' a number of times, and I applaud 
you for that.
    My two concerns with regard to the shift in programming and 
funding relate--forgive me for being parochial--but to the 
Duluth area. We are proud to have eliminated our first area of 
concern on the St. Louis River there, but based on the first 5 
years of funding where we had received $4.5 million, there has 
been a dramatic reduction of almost three-fourths, down to $1.2 
million, and based on the first 5 years of work, it had been 
expected that we would have eliminated all of our areas of 
concern by 2019, which of course will not happen at this point 
in time, and that is an area of concern for me, and I would 
like you to address that.
    And then secondly, we have heard from Minnesota Pollution 
Control Agency and from the Minnesota Department of Natural 
Resources, and they, like you, were celebrating the 
unprecedented coordination and collaboration in what I believe 
they referred to as ``flexible dollars.''
    And now I see that funding for staffing will be restricted 
to project specific, and there is a concern that I have and 
others have that that will reduce the ability for that kind of 
collaboration and cooperation between State and county and 
local on a broader basis.
    So if you could address both of those concerns, it would be 
much appreciated.
    Mr. Korleski. Mr. Chairman, Representative, yes, there is 
no question that in this latest funding cycle the money that we 
were able to provide to States for what I would describe as 
capacity funding was less, and the main reason for that is 
because the first determination of how much States, including 
Minnesota, would get as capacity funds was put together back in 
2010 when GLRI was funded at a level of $475 million.
    That was a 5-year allocation, if you will, and it was based 
on the belief that there would be $475 million. During that 5-
year period we did not reduce that annual allocation even 
though the amount dropped from $475 million to roughly $300 
million a year over the last 4 years. We did not change the 
allocation during that 5 years.
    When that grant expired after 5 years and it was time to 
renegotiate a new grant with the States, we were looking at 
what was essentially a 37-percent reduction in the GLRI if we 
were looking at a $300 million level. If we were looking at a 
$250 million level that was proposed, that was a 48-percent 
reduction compared to what we had back in 2010.
    That was the main reason why we had to reduce the amount of 
capacity funding for the States.
    Your second comment, which I am very glad you raised the 
issue of this project-specific funding, one of the things that 
we are trying to emphasize----
    Mr. Nolan. Staffing for project specific, yes.
    Mr. Korleski. Exactly. One of the things that we are trying 
to do is make a clear distinction between funding for capacity 
and funding for projects. I will give you an example.
    Capacity funding for us would be money given to a State, 
for example, to allow staff to attend meetings, to allow them 
to travel, to allow them to do overall budgeting over their 
plan as a whole.
    Project specific work would be, for example, staff working 
on a specific AOC-related project. And one of the things that 
we tried to convey to the States is we want them to start 
putting their staffing needs in their project applications 
rather than just relying on capacity grants to take all of that 
into account.
    So in other words, we think there should be an appropriate 
amount of capacity funding to do overall planning, but if staff 
is going to be working on a specific AOC project, our advice to 
the States is build that number into your project application; 
build that cost into the project application; and then that 
will be treated as part of the project.
    We would intend to fund it, assuming we had the money, but 
it gets us away from this ``is there enough capacity money to 
do both capacity- and project-specific work?'' The reason we 
want to do that is because we think if we can more clearly 
identify when money has gone to specific projects, it just 
gives us a better ability to account for that money.
    Mr. Nolan. Well, and I appreciate that, but you know, 
having staffing for a greater coordination and collaboration, 
you know, as you were celebrating and I celebrate, it gives the 
regional groups a greater capacity to adjust as well, depending 
on, you know, what the county/State priorities are and what 
they might want to fund, and so I appreciate your trying to 
take a look at a bigger picture.
    But if the city or the State or the county wants to do 
something differently, but significant, you know, with that 
coordination, that collaboration, that is how you know about 
that, and that is how you can adjust to it and make the things 
happen.
    Well, I am about out of time here, but thank you very much 
for all the great work that you do. This is really important, 
and I lament the fact, Mr. Chairman, that we celebrate and, you 
know, we might be able to come up with $300 million, you know, 
when it is darn near $200 million short of what we are used to.
    So, you know, I think we should look at trying to find some 
ways to authorize a greater expenditure here for this important 
project.
    Lastly, Mr. Kramer, and just a quick answer, you talked 
about if we did away with all of the agricultural pollution we 
would reduce it like 40 percent, and you alerted to the other 
sources.
    Do you have any statistics on exactly how much comes from 
municipal and industry and other?
    And if you do, could you share those with us?
    Mr. Kramer. No, Congressman, I do not. We can check with 
some of our scientists and see if they have pulled some of that 
information, but I am not aware of that. We were just looking 
at the agricultural and what reductions in phosphorus and 
nutrients and nitrogen we would see from all of the treatment 
of all of the agricultural land.
    Mr. Nolan. Well, if you come across any of that, take a 
look, would you please, and let us know?
    Mr. Kramer. Yes.
    Mr. Nolan. And maybe we could have our staff look at that, 
too, and that would be helpful to us in understanding the scope 
of this problem.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Before we excuse the panel, I know I have one 
question. I think my ranking member has a question.
    But I guess, Mr. Korleski, we are going to go to you with 
your background as a former Ohio EPA director and your role 
now. There has been a lot of discussion about the impact of 
open-lake disposal for dredging and the legacy issues.
    Can you just give us your thoughts of what the impact might 
be on, you know, the legacy issues of phosphorus for the open-
lake disposal?
    Mic, mic, mic, mic.
    Mr. Korleski. The green button was on. You fooled me.
    Mr. Chairman, that is a great question. So we know that 
open-lake disposal is a huge issue, for example, in the 
Cuyahoga area. There the issue is not so much phosphorus or 
nutrients----
    Mr. Gibbs. It is PCBs [polychlorinated biphenyls].
    Mr. Korleski. PCBs, exactly. So that is one kind of issue 
you have.
    Out in Toledo where there is a much larger amount of 
sediment that needs to be dredged there, there is some 
speculation that by open-lake disposal that material could 
exacerbate the phosphorus problem. I have never heard anyone 
point to any scientific certainty or as close as you can get on 
science.
    What we are thinking about, one of the big issues that we 
are thinking about with regard to open-lake disposal is in 
general I think most people would prefer if it did not go into 
the lake.
    The problem is, and the problem that we want to work on 
with our partners is, finding beneficial uses for that 
material, whether it is filling in old basements, whether it is 
for stockpiling for soil for gardens, whatever that is. We 
think that beneficial use is critical.
    Mr. Gibbs. Just to comment a little bit on the Cuyahoga-
Cleveland issue, I think they have made significant progress on 
finding beneficial uses, the filling in the basements of the 
Land Bank Program there. The bedload interceptor, I do not know 
if you are familiar with that, started this spring going up the 
Cuyahoga River upstream and collecting a lot of sediment before 
it gets more in the contaminated legacy areas. So I am hopeful 
that could come in.
    The good thing about that issue there, the amount of cubic 
yards is a lot less than what we have in the Toledo-Maumee 
area.
    Mr. Korleski. Yes.
    Mr. Gibbs. And that is highly laden with phenyl phosphorus, 
and I know that you said there is no scientific evidence. I did 
not know if there was any thought of trying to do more studies.
    I know there have been comments made by certain elected 
officials in Ohio that, you know, they put it out in the lake 
and Lake Erie is so shallow out there, that is one of the major 
problems, issues, challenges. It kind of gets washed back into 
it.
    And we think that could be a hypothesis as a fact that 
maybe it is adding to the legacy issues. Go ahead.
    Mr. Korleski. Mr. Chairman, going back to my days at Ohio 
EPA, I wrote a very heartfelt letter to the Corps of Engineers 
expressing concerns with in-lake disposal in the Toledo area 
because of the volume of the amount.
    During that time I talked to a lot of technical people, 
scientists, about is there any--I will not even call it 
conclusive--hard evidence that this is going to exacerbate 
either the phosphorus problem, the nutrient problem through any 
mechanism.
    Mr. Gibbs. Yes.
    Mr. Korleski. And I could not get a clear answer. So I 
think I am relying on what many other people are relying on, 
which is it is such a large amount of sediment there must be a 
better use for it.
    Mr. Gibbs. Yes.
    Mr. Korleski. But finding that use----
    Mr. Gibbs. It should be an asset instead of a liability.
    Mr. Korleski. That is the way we would look at it.
    Mr. Gibbs. This is the last quick question. The Western 
Lake Erie Basin, you know, is so shallow, 30 feet or whatever 
it is, compared to maybe up in Mr. Ribble's area of Lake 
Superior I have heard 700 feet. I do not know. It is very deep.
    So open-lake disposal in depths like that, common sense 
would tell you that maybe it is not an issue because of the 
depth. Would you concur with that?
    Mr. Korleski. I think that, Mr. Chairman, if you are 
talking about the Western Basin where I think somewhere around 
20, 25 feet is the average depth----
    Mr. Gibbs. OK.
    Mr. Korleski [continuing]. If you are dumping in roughly 1 
million cubic yards--I do not recall what the exact volume is--
I can see the argument that, well, OK, you are certainly just 
keeping this shallow.
    But, again, I would be reluctant to assert with any 
certainty that I know that that is either exacerbating the 
nutrient problem or any other problem.
    The one thing I would say and what I pointed out several 
years ago though is the question I would have is: how much are 
you redredging that you have already dredged?
    And I raised that issue back in 2010 when I believe this 
came up and was not able to get a clear answer then either.
    Mr. Gibbs. It would be nice if somebody put markers on 
there so that you actually tracked that.
    Mr. Korleski. Yes. Yes, it would.
    Mr. Gibbs. Thank you.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Gomez, the GAO's report of July 2015 indicated EPA 
should improve its monitoring reporting data. So before your 
report came out they changed it to the EAGL system. How is that 
improving and will that satisfy?
    Mr. Gomez. So that is a good question, and, right, as we 
were doing our work we had recommendations for EPA to either 
decide to do away with the old system or improve the old 
system.
    The new system that they have, which is referred to as 
EAGL, when we were doing our work, EPA was still finalizing it. 
So we have not looked at it to see how it is working. We do 
think that it is----
    Mrs. Napolitano. When will you know though?
    Mr. Gomez. Well, so we are going to be tracking the 
development of it. So I believe that EPA is supposed to allow 
data entry at the beginning of fiscal year 2016.
    Mrs. Napolitano. So not until next year?
    Mr. Gomez. So once that happens, we were also interested to 
make sure. I know one thing that EPA has done already is 
restricted who inputs information into that system so that now 
you get more consistent information. In the old system, 
everybody I believe who was a grantee or was an entity 
receiving funds could input information.
    EPA has also improved the guidance that they have provided 
to----
    Mrs. Napolitano. Is it project specific?
    Mr. Gomez. Yes. It would be project specific, and they are 
restricting who can do it. It is just Federal agencies, and 
they have better guidance.
    So we would like to see how that goes and can report back 
on it.
    Mrs. Napolitano. How long will it take you after you review 
that data next year?
    Mr. Gomez. Well, we would have to wait until at least there 
is some data entry. So once the Federal agencies enter the 
information I would give it a year for us to see how well it is 
working.
    Mrs. Napolitano. How often will you track that data?
    Mr. Gomez. Well, at this point because we did not make a 
recommendation, because EPA was taking action, we would 
probably have to look at the effort again. So we would get a 
request from you that says go back in and see how this system 
is working. We would be more than happy to do that.
    Mrs. Napolitano. Or if it is working.
    Mr. Gomez. The one thing that I just wanted to add which 
has not been brought up, and I think it is important to 
mention, the issue of nutrient runoff, and that is in the work 
that we did as we talked to stakeholders, they told us about an 
issue that really is not addressed by the GLRI, and that is the 
issue of inadequate stormwater and wastewater infrastructure 
that leads to runoff.
    Mrs. Napolitano. Water treatment plants.
    Mr. Gomez. So that is a big area. We refer to it sometimes 
as urban runoff. I think it has maybe been referred to, but 
that is an area that stakeholders said is key. It contributes 
to nutrient runoff, and it's not addressed really by the GLRI.
    Obviously, you know, EPA has the State Revolving Funds and 
each State then provides money.
    Mrs. Napolitano. What would provide the ability to be able 
to not control but actually modify how it is being treated and 
who is treating it?
    Mr. Gomez. So in a lot of cases what happens with this 
infrastructure, it is just one pipeline. So in heavy rains, the 
overflow just goes into streams, lakes, rivers instead of the 
treatment plant. So it is an issue in a lot of places, and you 
will probably hear from the second panel, it is an issue that a 
lot of cities and towns across the country face.
    Mrs. Napolitano. So are you looking at the improvement or 
upgrading of the water treatment plants to be able to 
accommodate that?
    Mr. Gomez. That is one option, yes. So others are----
    Mrs. Napolitano. But is that being considered?
    Mr. Korleski. So under the GLRI one of the things that we 
are focusing on is controlling stormwater runoff through 
something called green infrastructure. We do not spend and we 
are prohibited from spending GLRI money on hard infrastructure 
like wastewater treatment plants.
    Mrs. Napolitano. OK.
    Mr. Korleski. We cannot do that, but we are very well aware 
that stormwater runoff can cause health hazards. You cannot 
swim in a beach because of E. coli, whatever the problem may 
be. So we have devoted a considerable amount of funds and we 
are continuing to focus on this concept of green 
infrastructure, which can be as simple as where you have got 
runoff running down into a beach area you construct a little--
we would call it a swale, a little ditch. You put plants in it 
that absorb the runoff. They filter the runoff so that before 
it actually gets into the lake, it has essentially been 
filtered and you have captured a lot of the E. coli.
    That kind of project we can do, and we have had two rounds 
now of what we have called green infrastructure funding, and we 
plan to continue.
    Mrs. Napolitano. But wouldn't it make sense to be able to 
assist the treatment plants to be able to upgrade or expand, to 
be able to handle in times when you have exceeding amounts of 
rain?
    Mr. Korleski. And again, part of the green infrastructure 
intent is to capture some of the water before it gets into the 
concrete stormwater system. By reducing that amount of 
stormwater getting into the system, it can reduce the 
likelihood of overflows.
    But again, the way GLRI is structured, we can't offer money 
to fix or update treatment plants themselves.
    Mrs. Napolitano. OK. Well, it might be something you might 
want to consider in the future.
    Now, you mentioned an issue--I think it was Mr. Kramer--on 
quagga mussel infestation. Somebody did. Was it you, Mr. 
Korleski?
    Quagga mussel, that is very costly to reduce or clean the 
intake valves in all the systems that are affected. What have 
you found is, how would I say, working to be able to reduce the 
impact it has on those intakes?
    Mr. Korleski. So, Ranking Member, probably the latest news 
is within the past year there has been--I am not recalling the 
term--I will call it a ``quaggacide'' or a ``zebracide.'' There 
has been essentially a pesticide that has been found to be 
effective against Dreissena mussels, which are the quagga and 
zebra mussels.
    Mrs. Napolitano. The zebra, yes.
    Mr. Korleski. And the information thus far shows that it 
can have an impact on them without impacting other, for 
example, native mussels.
    Mrs. Napolitano. Would you send to this subcommittee 
information on that? Because I am sure some of our entities 
would be glad to know what it is that is successful in that 
area.
    Mr. Korleski. We would be happy to do so. The one thing I 
would point out is that thus far it has only been tried on a 
pilot level.
    Mrs. Napolitano. OK.
    Mr. Korleski. It has only been tried on a pilot level.
    Mrs. Napolitano. Now, California has many problems with 
water, as you well know, we are facing drought. But are there 
any recommendations you have for California?
    Mr. Korleski. Ranking Member Napolitano, the only thing I 
can say is I think with each passing month and year, whether we 
live in California or we live in the Great Lakes Basin, we all 
realize that water is precious.
    Mrs. Napolitano. Correct.
    Mr. Korleski. And it is being recognized as being more 
precious, and we have to protect it. Whether it is on one 
extreme a drought where we have to do a better job of 
conserving water or on the other extreme, you are seeing more 
intensive storms dumping a large amount of water in a short 
period of time; we have to plan for that.
    Mrs. Napolitano. But what I find more interesting is the 
partnerships that were forged to be able to make this happen.
    So thank you, Mr. Chair.
    Mr. Gibbs. I want to thank the panel for coming in today 
and sharing your thoughts and expertise, and I think it is in 
the report and in our hearing today that collaboration, working 
with all of the different agencies, and the private entities, 
and, Mr. Gomez, you raised a good point about the hard 
infrastructure, the mine sewer overflows and all of that issue, 
and we did put in the WRRDA [Water Resources Reform and 
Development Act] bill the last time a WIFIA pilot program to 
try to help supplement the State Revolving Funds to address the 
hard issues.
    But also on the green side of things, as a farmer I can 
tell you I have seen amazing things happen with buffer strips 
and grass waterways. The filtration process in nature is really 
amazing, and so there are some things that can be incorporated 
that I think make a lot of sense.
    I think we know the work that NRCS and all the people who 
do that on a voluntary basis, working with all of the farmers 
in the agricultural sector out there, is very important, and 
moving forward I think we can make some good progress.
    So again, thank you for coming in today, and you are 
excused, and we will bring up the second panel.
    Welcome to the House Committee on Transportation and 
Infrastructure Subcommittee on Water Resources and Environment. 
Today on our panel 2 we have Mr. Jon Allan. He is the acting 
chair of the Great Lakes Commission; the Honorable John 
Dickert, the mayor of the city of Racine, Wisconsin; Mr. Ed 
Wolking, Jr., the executive director of Great Lakes Metro 
Chambers Coalition; Mr. Doug Busdeker, director of the Ohio 
AgriBusiness Association; and Mr. Chad Lord, who is the policy 
director of Healing Our Waters--Great Lakes Coalition.
    Welcome, and, Mr. Allan, the floor is yours.

TESTIMONY OF JON W. ALLAN, CHAIR, GREAT LAKES COMMISSION; HON. 
  JOHN DICKERT, MAYOR, CITY OF RACINE, WISCONSIN; ED WOLKING, 
JR., EXECUTIVE DIRECTOR, GREAT LAKES METRO CHAMBERS COALITION; 
 DOUGLAS R. BUSDEKER, DIRECTOR, OHIO AGRIBUSINESS ASSOCIATION; 
 AND CHAD W. LORD, POLICY DIRECTOR, HEALING OUR WATERS--GREAT 
                        LAKES COALITION

    Mr. Allan. Thank you, Chairman Gibbs, Ranking Member 
Napolitano, for holding this hearing today.
    The Great Lakes Restoration Initiative remains a top 
priority for the Great Lakes Commission and its member States, 
and we appreciate your oversight and your interest in it.
    I serve as director of Michigan's Office of the Great 
Lakes, but I am here today as chairman of the Great Lakes 
Commission. I moved from acting to chair just the other day.
    The commission was formed by eight States in 1955 to 
provide a common voice on behalf of the eight States on 
important Great Lakes issues.
    The Great Lakes are a great national treasure and a vital 
economic interest. They provide us with multiple benefits, but 
most profoundly they constitute the social and cultural 
background for nearly 40 million U.S. and Canadian citizens who 
live within that basin. The lakes are a significant and growing 
component of our regional and national economies.
    Restoring and properly caring for the Great Lakes is a 
longstanding and a bipartisan priority for our region's 
leaders, including my boss, Governor Rick Snyder. The focus has 
continued through Democratic and Republican administrations and 
enjoys broad-based support among States, tribes, cities, 
businesses, industries, and with conservation groups.
    The commission and its member States have been deeply 
engaged with the GLRI since its inception. The States actually 
helped formulate some of the original GLRI focus areas and 
State staff are supporting many of the projects and actions 
underway either directly on projects or assisting local 
partners across each of our States. The States' contributions 
are vital to the program's success.
    The GLRI is a strong and well-managed program that is 
targeting resources at our most serious problems and areas. It 
is supported by sound science, and is guided by an action plan 
with important performance metrics.
    The GLRI has stimulated impressive progress over the past 5 
years. Noteworthy highlights include actions to thwart bighead 
and silver carp from invading the Great Lakes, targeted 
nutrient reductions in watersheds contributing to dangerous 
algae blooms, and of course, the cleanups of the AOCs we have 
been talking about.
    Really one of the most striking impacts, I think, has been 
in this area of AOCs, where the GLRI together with State 
resources and local resources and capacities is enabling 
communities to clear their legacy contamination and to 
revitalize degraded waterfronts, transforming them into once 
again valuable assets.
    Last year we were very proud in Michigan that we were able 
to delist two of those AOCs, and it is really not the Federal 
Government that I want to think about and the States, but it is 
30 years of people in communities that worked hard towards that 
end. So I want to recognize how important the communities have 
been. It is important, and they feel the benefit of that 
progress.
    I will say though that it would not have been possible 
under any circumstance without GLRI to promote that activity. 
Communities have been waiting for decades for this kind of 
progress.
    While the GLRI predominantly focuses on ecosystem 
improvements, it is also generating important cultural, social, 
and economic benefits for the region and the Nation and for our 
communities and should be recognized and celebrated. 
Businesses, jobs, wildlife, and people--people--are returning 
to waterfronts across the region that were once written off, 
ignored, forgotten about.
    Performance metrics really cannot fully capture this 
evolution as much as we work towards that end, but it is 
profoundly important for local economies and for our quality of 
life and really, human well-being.
    There is room for improvement, however. You have seen some 
of that in our written testimony. The commission's specific 
recommendations have been provided there. However, I will just 
highlight a few of the following things that we have already 
touched on, I believe.
    First, we really urge improved coordination, consultation, 
engagement with the States. We really see ourselves as more 
than just stakeholders. We have sovereign authorities. We have 
regulatory responsibilities. We have direct connections to 
communities, and really work hand in hand with them and our 
Federal partners as well. We see this as collateral 
partnerships.
    Second, we need to sustain State capacity to support an 
effective Federal-State partnership. We need to ensure that 
Federal programs are integrated with State priorities and 
workplans, and we must maintain State capacity towards that 
end.
    Third, we must maintain long-term monitoring to assess 
progress, success, and as we have heard, to adapt over time.
    Finally, we need to better target our nutrient reduction 
actions to prioritized watersheds that contribute to the 
formation of harmful algae.
    While some of that coordination is directly beyond GLRI, it 
is in other programs and other Federal programs that can be 
aligned with both the Federal and the State interests, and the 
States can play a very unique role in helping that coordination 
amongst multiple programs.
    In conclusion, the commission reiterates two priorities for 
Congress: sustained funding for Great Lakes restoration. We 
really need to continue the progress that we have seen, 
continue the efforts that really have been happening for 
decades with great success recently; and ultimately to pass 
formal legislation authorizing the GLRI.
    The GLRI has generated real progress, progress that would 
not have occurred without it and refinements such as the ones 
in our testimony can build upon that success. The commission 
and its member States urge Congress to support the program, and 
we pledge, as States and through the Great Lakes Commission, 
our continued partnership towards the restoration of the Great 
Lakes.
    Thank you.
    Mr. Gibbs. Mayor, welcome. The floor is yours.
    Mr. Dickert. Mr. Chairman, good morning, and committee 
members, good morning. Ranking Member Napolitano, good morning, 
and all of you watching in TV land, good morning.
    I am Mayor John Dickert, mayor of Racine, Wisconsin. We are 
a city between Milwaukee and Chicago on Lake Michigan, about 
80,000 folks.
    I sit as the vice chair of the Metro Economies Committee 
with the U.S. Conference of Mayors and also serve on their 
Mayors Water Council. I was the past chair of the binational 
Great Lakes and St. Lawrence Cities Initiative, and I serve on 
Governor Walker's Coastal Management Commission, and was 
president of the Urban Alliance in Wisconsin.
    What does this all mean? It means I am a little familiar 
with water. I am here to testify for the U.S. Conference of 
Mayors and the Great Lakes and St. Lawrence Cities Initiative, 
and I ask that the testimony be inserted in the record.
    We did have the best tasting water in 2011. Our Blue Wave 
Beach has been consistent for 12 years, and USA Today and NRDC 
[Natural Resources Defense Council] rated us as one of the top 
beaches in the world. So to say the least, we are committed to 
water.
    We have put our focus on it, and the importance of the 
Great Lakes obviously cannot be overstated. As we saw with 
Toledo, 20 years ago they were actually rated as the best 
tasting water in America.
    We just recently had a meeting with them and Mayor Rahm 
Emanuel, which we held in Chicago because of the problems that 
they had in shutting down water to 500,000 people. When you 
don't pay attention to the problems, obviously we can have 
dramatic effects.
    We are obviously seeing that 20 percent of the freshwater 
in the world is from the Great Lakes, and the Conference of 
Mayors did a study where only 35 percent of the mayors that 
responded knew where their water was coming from in 2020. That 
is a sad fact, but the mayors, we spend a lot of money on our 
infrastructure and our water. In 2012, we spent $111 billion on 
our infrastructure to provide those two. Congress, thankfully, 
spent $2 billion. So we thank you for that.
    We recognize the importance of infrastructure when 94 
percent of the withdrawals that we are taking are for food, 
food production, drinking water and energy. That is why GLRI is 
so incredibly important. You know when you look at nearly 2,700 
projects have been done since this started, this is incredible, 
and I have got to tell you, Mr. Chairman and Ranking Member, 
thank you for doing this. Thank you for holding this meeting 
and talking about this. It is important to us.
    The Conference obviously supports this. We ask and pray 
that you break down the silos within the agencies so we can all 
work together. We have been doing that. We have been officially 
and effectively using your taxpayer dollars because we know how 
vital every one of those dollars is.
    Closer to home in Racine, we have used GLRI money in a 
blending of three projects, one to take a beachfront that was 
so polluted you could not even walk on it it smelled so bad, 
and turning that beach around making it available to 
handicapped and seniors. We then blended it with a road project 
where we took the road and took the runoff into an 
environmentally friendly, sensitive cleaning, and then cleaned 
out our harbor and worked with pervious pavement to provide an 
opening for the largest inland fishing tournament in the world.
    We do this blending because we know the dollars are 
important. We do it because we get peak efficiencies and cost 
savings by blending all of this together, and I will tell you 
GLRI has been consistently used to leverage multiple partners 
in funding because we have redeveloped areas that would have 
never been redeveloped without these funds.
    We rebuild our cities, and we do them efficiently and 
effectively. We are the ground game that you are talking about. 
When you are asking who is doing all of the work, well, we are 
the ones, and we are here because we know the dollars are 
precious.
    Mayors have been responsible to protect the public health 
and safety of our citizens. That is our job. That is what we 
do. So we are prepared to break down the silos, work with you, 
create that efficiency and effectiveness, but also that 
flexibility.
    There is a Native American saying that I wanted to end with 
and maybe touch on two other points if we have a second, which 
is that we do not inherit the land from our ancestors. We 
borrow it from our children. So we ask you to work with us so 
that we can create a future for our children that is an amazing 
one.
    With your permission, Mr. Chairman and Ranking Member, I 
would just like to say I know you have talked about brownfields 
in the past, and you have had testimony on it, and I will tell 
you that in cities like ours that are industrial, we would not 
be able to rebuild our cities and create new growth and a new 
economy without it.
    So I have leveraged the brownfields funding in my city for 
a potential of up to $200 million in growth over the last 5 
years.
    The last thing is that I know that you are looking at 
authorization of this, as mentioned earlier. I hope you do do 
that.
    The last piece is that I know that the appropriations 
language and the EPA section 428 of Senate bill 1645 is 
regarding discharges, and I will simply leave it at this 
because my time is over. We can control discharges about as 
well as we can control weather, and because of that we simply 
cannot prepare for all of it.
    So we are doing our best, and we look forward to that 
conversation, but I hope you will consider that language 
carefully.
    Mr. Gibbs. Thank you.
    Mr. Wolking, the floor is yours. Welcome.
    Mr. Wolking. Thank you, Mr. Chairman, Ranking Member 
Napolitano, members of the subcommittee, thank you for the 
opportunity to be here today.
    I represent the Great Lakes Metro Chambers Coalition, which 
is a group of Midwestern chambers dedicated to the 
competitiveness of the Great Lakes trading region, emphasizing 
Federal actions that will accelerate our region's economic 
comeback. We have an appreciation of the fundamental role of 
manufacturing in our region and a tight focus on targeted key 
issues especially important to this region.
    Together with the Great Lakes Manufacturing Council, we 
have pioneered the notion that the binational Great Lakes 
region is the third largest economy in the world when you take 
the combined State and provincial GDPs [gross domestic 
products] together.
    More about our agenda and our issues is in this brochure. I 
am happy to make that available to the subcommittee with your 
leave.
    At the center of our region is the Great Lakes. It is a 
fundamental transportation artery, as Chairman Gibbs has noted, 
but it is also from a different perspective, a defining and 
precious geographic asset. It is the most important body of 
freshwater in the world. It is critical to the economic well-
being of our region, the social fabric of our region, and the 
employment of many thousands of people, and it is key to the 
region's and Nation's future.
    A critical consideration is whether you can have growth and 
economic development and quality environment at the same time, 
and it used to be that people thought it was a false choice 
between growth and the environment and you had to choose one or 
another.
    But with technology and processes we have today, we can 
have both clean, desirable waterways and economic growth, and 
that is often cited by political, business and community 
leaders.
    Our coalition's Great Lakes-related priorities include what 
has been mentioned here before a time or two: the Clean Water 
State Revolving Fund, which is very important to the lakes; 
prevention of Asian carp; and eradication from the Mississippi 
and Ohio watersheds which sit on the doorstep of our region, 
and obviously the Great Lakes Restoration Initiative where we 
spend much of our time.
    The effects of this program, the GLRI, are enormous. More 
than 2,500 projects that GLRI has been involved in overall; 
over 5,300 miles of U.S. coastland; and 99 percent of the funds 
have been obligated.
    We have gone over the numbers and the five pillars from 
other speakers. I will not belabor those, but those pillars are 
very, very important to the region's future.
    Some have tried to pin a specific ROI [return on 
investment] on this wide-ranging initiative. Our view is that 
that takes major time. There is a lot of interrelated, 
intricate, hard to quantify moving parts. It is complicated 
work, but we are learning. About 10 years ago a Brookings group 
calculated an ROI that was about 3\1/2\ to 1. More recently a 
Grand Valley State University Muskegon Lake project calculated 
an ROI of about 6 to 1.
    These are systems approaches, however, and they are hard to 
model, but we would say the real key to all of this is that 
everybody in our region knows that this is the right thing to 
do and that if we stay the course, good things, many good 
things, are going to come of this initiative.
    It is bringing activity back, and it is vital to 
placemaking, which plays such a fundamental role in economic 
growth and decisions today.
    We support the minimum $300 million annual investment, 
which we think is a sensible level in these challenging times. 
We heartily support the notion of H.R. 223, the Great Lakes 
Restoration Improvement Act, for continuity purposes and to 
really solidify this program for the next 5 or so years.
    We are very supportive of the EPA's action plan II and 
obviously that adds up to being supportive of the fundamental 
work that this initiative is accomplishing.
    Many things are working in this approach. You can see the 
results. That is an important part of it. The multiagency 
interdisciplinary approach is key. We can build on this 
project, this initiative and gain momentum from our results, 
from learning how to work on this together, and also from 
engaging more stakeholders.
    A question came up, how to do better. Really there are a 
few things I would recommend on high-level terms and leave the 
details to the experts.
    Number one, a formal authorization of H.R. 223 is very 
important.
    Also, improved consultation, collaboration and coordination 
both vertically, up and down between Federal and State 
agencies, and local communities as well as across the range of 
Federal agencies.
    Obviously the measuring and the monitoring systems are key, 
and the improvements that are coming in action plan II. The 
data, the stories, making everything accessible to all, and 
also the Great Lakes Restoration Initiative Action Plan II, 
also very, very important to the future.
    And one final comment, thinking about Canada, it is very, 
very important to think of our relationship to our neighbor to 
the north. They are also the other key stakeholder.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Busdeker, welcome. The floor is yours.
    Mr. Busdeker. Chairman Gibbs, Ranking Member Napolitano and 
members of the subcommittee, thank you for this opportunity to 
be here today.
    I am Doug Busdeker of Pemberville, Ohio, in northwest Ohio. 
I am employed by the Andersons in Maumee, Ohio. I serve as a 
board member of the Ohio AgriBusiness Association, which 
represents the Ohio crop nutrient industry, along with grain, 
feed, seed and crop protection.
    The Andersons, Incorporated, my employer, was founded in 
1947 by Harold Anderson and built the first grain elevator in 
Maumee, Ohio. Currently I serve as a senior manager for 
Northern Farm Centers consisting of Ohio, Indiana and Michigan.
    I am pleased to be here today to relate the many positive 
agricultural activities occurring in the Western Lake Erie 
Basin. During my career I have engaged with farmers, engaged as 
an agricultural retailer in the region.
    Following the large algal bloom that occurred in 2011 in 
the Western Lake Erie Basin, many in the agricultural community 
recognized that agricultural retailers and farmers would need 
to play a bigger role finding solutions to address water 
quality challenges. Healthy water, clean, fishable and 
drinkable water is important to everyone, including all in 
agriculture. We recognize that agriculture must be part of the 
solution.
    Following the algal bloom of 2011, the Nature Conservancy 
partnered with several key agricultural retailers in the 
Western Lake Erie Basin to develop the 4R Nutrient Stewardship 
Certification Program. This voluntary program was focused on 
agricultural retailers since agronomists, certified crop 
advisers, sales personnel, and applicators were recognized as 
having a strong influence on nutrient use.
    Currently 17 agricultural retailers have been certified 
representing 1.2 million acres of cropland and 3,200 farmers in 
Ohio and Michigan. Another 10 are awaiting confirmation. Since 
our program launch on March 18, 2014, a total of 71 
agricultural retailers are in the process or have indicated 
interest in becoming certified.
    The 4R Nutrient Certification Program was founded on the 
Fertilizer Institute's 4R Nutrient Stewardship Principles of 
the right source, right rate, right time, and right place, and 
includes social, economic and environmental BMPs [best 
management practices].
    SCS Global, a respected independent audit development firm, 
was hired to create the 4R Nutrient Stewardship Certification 
standard. This standard involves 41 different specific criteria 
that are audited to become certified. Many newer BMPs are 
already occurring in the Western Lake Erie Basin. Cover crops 
of all types are growing in popularity. Equipment manufacturers 
are offering several new tillage options to inject crop 
nutrients below the surface. Application of gypsum is quickly 
being adopted, the sequestered phosphorus reducing dissolved 
reactive phosphorus runoff.
    Use of nutrient management plans to precisely determine the 
required nutritional balance for each crop is common. 
Commercial fertilizer nutrients are one of the single largest 
expense for traditional growers, and overuse leads to 
undesirable financial implications.
    Improving soil health resonates with all farmers. There is 
still much work to be accomplished, but conservation activities 
advance each year. On April 2, 2015, Ohio Governor John Kasich 
signed Senate bill 1 into law. Senate bill 1 prohibits manure 
and fertilizer application when fields are frozen, snow-covered 
or saturated.
    In addition, Ohio Senate bill 150, which requires anyone 
applying fertilizer on 50 acres or more to become certified, 
was signed by the Governor in May 2014.
    The Ohio AgriBusiness Association fully supported passage 
of both Senate bill 1 and Senate bill 150.
    Research has shown that algal blooms in the Western Basin 
of Lake Erie are predominantly the result of excess dissolved 
reactive phosphorus in our rivers and streams. While the exact 
source and why the increasing amounts of DRP [dissolved 
reactive phosphorus] is not clearly understood, research has 
shown that transport from agricultural land plays a significant 
role.
    In the 1970s and 1980s, when Lake Erie was in serious 
trouble, through research farmers widely adapted new tillage 
techniques, such as no-till conservation tillage. These 
practices remain in place today and contribute greatly to a 
reduction in particulate phosphorus runoff and erosion.
    Additional research is needed to identify new BMPs that 
support a reduction of dissolved reactive phosphorus during 
periods of extreme rainfall. To that end the fertilizer 
industry has committed $7 million to establish a 4R research 
fund. The goal of the fund is to establish sustainability 
indicators and environmental impacts for implementation of 4R 
Nutrient Stewardship across America. The fund provides a much 
needed resource for the focus on measuring and documenting the 
economic, social and environmental impacts of 4R Nutrient 
Stewardship.
    For the sake of time, I thank you again for this 
opportunity to provide you with an update on the many positive 
activities and projects occurring in the Western Basin of Lake 
Erie as we seek solutions to improve water quality.
    We all share the goal of having clean water for many 
generations to come.
    I would be happy to answer any questions.
    Mr. Gibbs. Thank you.
    Mr. Lord, welcome. The floor is yours.
    Mr. Lord. Members of the subcommittee, thank you for this 
opportunity to share our coalition's views with you today.
    As you have heard, the Great Lakes are a global resource 
with millions depending on their clean water. Yet the lakes 
still suffer from a legacy of toxic pollution, invasive 
species, harmful algal blooms, and the loss of habitat.
    Ten years ago President Bush asked our region to prepare a 
comprehensive restoration plan to address these and other 
problems. The Great Lakes Regional Collaboration Strategy was 
created. Four years later, President Obama proposed the Great 
Lakes Restoration Initiative that launched our region on a 
restoration path barely imaginable a decade ago.
    Because of the GLRI, we have been able to undertake one of 
the world's largest freshwater ecosystem restoration projects. 
Groups across the region are focusing on public-private 
partnerships to clean up toxic hot spots, restore fish and 
wildlife habitat, and combat invasive species, partnerships 
that may never have come together had it not been for the GLRI.
    The GLRI's size and scope means it plays a central, albeit 
not the only, role in successfully restoring and protecting the 
Great Lakes. The GLRI has accelerated progress and catalyzed 
critical restoration action that likely would never have 
happened otherwise.
    For example, in Duluth, toxic mud from the bottom of 
Stryker Bay was removed, making the bay safe to swim in once 
more.
    The city of Marysville, Michigan, replaced a failing 
seawall with a natural sloping shore and wetland providing 
valuable fish and wildlife habitat.
    The Brickstead Dairy near Green Bay planted cover crops 
reducing runoff to improve water quality.
    How we are accomplishing this is equally as impressive. The 
GLRI is a model for large, landscape-scale restoration. It 
ensures the focus remains on the region's highest priorities. 
It sought to fix the problem GAO identified all the way back in 
2003 that there was inadequate coordination among Federal 
agencies.
    Now, the EPA quickly converts the funding it receives for 
restoration activities by passing it through to other Federal 
agencies so they can direct it through their existing 
authorized programs at the region's highest needs. The GAO 
seemed to recognize these benefits in its most recent report. 
It found that Federal agencies had allocated almost all the 
GLRI funds that they had received and that it promotes 
efficiency and effectiveness by bringing agencies together to 
agree on common goals to prioritize restoration work.
    In short, the Great Lakes Restoration Initiative is 
working. However, no program is perfect. The GLRI should be 
continuously reviewed and updated to reflect the changes to the 
lakes, program deficiencies that have arisen or yet to be 
addressed, or new threats that have emerged.
    So what changes should be made? First, Congress should 
remove all doubt that the region is on the right path and 
restoration efforts are on track. Pass H.R. 223, the Great 
Lakes Restoration Initiative Act. Passing this bill creates 
greater certainty for the program and allows everyone to focus 
on getting the job done.
    Second, we support even greater targeting of GLRI funds in 
priority watersheds. However, we expect the GLRI to invest in 
all five focus areas and to fund activities in these areas as a 
prescription for recovery.
    We also want to see more consistency on when requests for 
proposals are released each year.
    Third, we remain worried that we are not as effective on 
larger lakewide scales at monitoring, scientific assessment and 
program project evaluation. Generally speaking, our coalition's 
members support the integration of monitoring requirements for 
projects they are undertaking.
    Successful monitoring has assisted HOW [Healing Our Waters] 
groups in documenting short- and long-term project successes. 
However, it is not clear how comprehensive and systematic 
monitoring is and how these local efforts add up to a well-
monitored, scientifically assessed system.
    Since the beginning we have been saying that monitoring 
requires more GLRI resources than it receives now, and that 
those funds be available beyond just a couple of years so we 
can track long-term progress. It would also help if this 
monitoring stems from a Great Lakes research plan which has yet 
to be assembled.
    Fourth, buy-in from the Great Lakes community is also 
critical to the overall success of the GLRI. Agencies at every 
level of Government must talk to the public to help understand 
what progress has been made, where efforts should focus next, 
and whether the restoration priorities of the Great Lakes 
restoration community and, therefore, the GLRI, should change 
based on those assessments.
    Annual engagement of the non-Federal stakeholder community 
leads to better coordination and better alignment of resources 
and work at all levels.
    To sum up, the Great Lakes restoration investments are 
paying off for the environment and economy. The Great Lakes 
Restoration Initiative is Government at its best; agencies 
working with business, civic and community groups 
collaboratively on a common goal. The results are impressive 
and underscore why this national effort needs to be authorized 
so that we can see the job through to the end. Cutting funding 
will only make the job harder and more expensive.
    Thank you for inviting me to share our views with you. I am 
happy to answer any questions.
    Mr. Gibbs. Thank you.
    I will start off with a question here.
    Mr. Allan, in your testimony you describe the need for 
increased coordination, consultation and engagement between the 
Federal GLRI agencies and the Great Lakes States. Can you give 
us examples of how the current efforts by the Federal agencies 
in the area are just not enough?
    And then are States treated as coequal partners? Can you 
just elaborate?
    Mr. Allan. Yes, thank you.
    It has been subject to our written testimony as well. I 
think the States are feeling the necessity to be sort of 
engaged in some of the decisionmaking process, not just as the 
recipients of the funds, but really a little more upstream in 
that process to make sure that we can coordinate as much as we 
can with other existing State programs, State resources, and 
really at the community level, too, to help be part of that 
facilitation.
    So I think that is an important aspect. As I said, I think 
the program has worked well. A lot of money gets targeted to 
the right things, but I think the States would like to see some 
further integration sort of upstream in that decisionmaking.
    We did receive a letter to our letter to Administrator 
McCarthy.
    Mr. Gibbs. Are the States involved in the subgroups that we 
talked about in the first panel?
    Mr. Allan. They have not up to this point, but we have some 
commitments from EPA that the States will be included further 
in that deliberative process.
    Mr. Gibbs. Yes, I think that would be a critical component. 
I mean, it is a partnership.
    Mr. Allan. Yes.
    Mr. Gibbs. States ought to be involved in getting down in 
the weeds.
    Mayor Dickert, can you explain kind of on that same 
question, as a mayor, the relationship of the municipalities 
with the Federal Government on this question about the 
consultation and involvement?
    Mr. Dickert. Well, first of all, thank you, Mr. Chairman.
    First of all, we have had a great coordination with EPA 
region 5. We do not as mayors, at least I do not and most of 
the mayors that I know, we do not go out and just ask for money 
willy-nilly and just say we want to take all the money without 
project coordination and dramatic results.
    So the first thing is we work with the EPA and on the 
problem areas that we see for the end game, and that end game 
is usually not only cleaning up the environment, but providing 
that economic benefit as it moves forward, whether it's helping 
as business development or overall quality of life issues for 
your cities.
    The coordination that can go on top of that is the 
additional coordination with the State, and when you have got 
all three of those players playing in the same sandbox, you 
have got some really good things going on. So they can 
coordinate their money for efficiency and effectiveness with 
the cities and the counties and the Federal Government. It is 
the perfect answer.
    The issue that we deal with, candidly, is the silos within 
the Federal Government that there is no flexibility and that 
limits sometimes even the money that you can go after because 
it does not fit perfectly into a box.
    Mr. Gibbs. Yes, you would think with a grant process that 
would help break down some of that, but that is what we need to 
work on, I think, in the authorization.
    Mr. Dickert. Grants and prioritization, correct.
    Mr. Gibbs. Yes. Mr. Busdeker, on the 4R Program you talk 
about, nutrients, stewardship, dealing with the right source, 
right rate, right time and right place, obviously that is just 
plain common sense to me as a farmer. Your statement about 
excess nutrient supply costs money, and you cannot hardly do it 
especially with today's commodity prices. It is not a smart 
thing to do.
    Has the GLRI provided any funds to help with your efforts 
for the 4R Program?
    Mr. Busdeker. Mr. Chairman, thank you for that question.
    Not directly for the 4R Certification Program. That has 
been funded by industry as well as the folks who become 
certified that go through the audit. They have to pay for the 
auditing process and so forth.
    Mr. Gibbs. Are you seeing with GPS, global positioning 
system, and I know my larger green farmer friends, it is in all 
their equipment out there, especially in northwestern Ohio, 
seeing more farmers moving to more specific placement of 
nutrients using GPS? Is that starting to happen or not?
    Mr. Busdeker. Well, that is becoming very common. We call 
it variable rate technology in terms of application of 
nutrients, and I would say that is becoming commonplace. It is 
not 100 percent, but it is rapidly progressing forward as the 
way to apply nutrients.
    Mr. Gibbs. And I think for anybody listening to this or 
viewing this, you know, the reason I raise that question is I 
think it is important because people do not realize that in any 
given field you can have tremendous yield differentials and 
fertility levels because the soil does change, you know, across 
a 5,800-acre field or whatever.
    It helps the farmer's bottom line by getting that nutrient 
placed where it is needed and not putting excess on where it is 
not needed, and that is where GPS would come in. I think you 
would concur with that, right?
    Mr. Busdeker. Yes, that is correct. And we have actually 
for years, many, many years previously, used one rate across a 
field, but today we are breaking this up into individual 
management zones based on yields, and that has been occurring 
not on all fields, but we are progressing that way. That is 
kind of becoming the way of the industry.
    Mr. Gibbs. Has the Natural Resources Conservation Service, 
are they doing enough? Is there more they can do or what are 
your thoughts on that?
    Mr. Busdeker. Well, they are doing a lot in the area, 
especially with the cover crops and the various things that are 
going on. They are a great help, yes.
    Mr. Gibbs. OK. Thank you.
    Mrs. Napolitano, I yield to you.
    Mrs. Napolitano. Thank you, Mr. Gibbs.
    And to that question, Mr. Busdeker, this is all voluntary 
if I remember correctly, the farmers utilizing fertilizer that 
was being now informed in the way it is being utilized by you. 
Do you have data on that?
    Do you have any data that shows the trend, the lines of the 
application of these nutrients to the land, both commercial and 
manure?
    Mr. Busdeker. Well, the voluntary part that you have made 
mention was the certification program for the agricultural 
retailer.
    Mrs. Napolitano. It is only about 70 percent certification, 
right?
    Mr. Busdeker. Well, not 70 percent. We have got I think it 
was 17, I believe I said, that were certified agricultural 
retailers. Now, that is not farmers. That represents about 1.2 
million acres in the Western Basin of Lake Erie and about 3,200 
farmers.
    But as far as the participation and all in this nutrient 
management and so forth, that is a pretty high percentage of 
farmers because really our sales and certified crop advisors 
provide that information to the grower.
    Mrs. Napolitano. Do you have any of that data?
    Mr. Busdeker. Specifically I am not sure I understand the 
question.
    Mrs. Napolitano. The data that shows the trend of the 
reliance on the application of the nutrients, commercial and 
manure. Are you showing how much it is being utilized?
    Mr. Busdeker. Well, we know based on crop production. That 
is how we determine how much to apply. It starts with a soil 
test. Then we go through the crop production. We determine 
yield goals, and then we determine how much nutrient needs to 
be applied, which includes livestock waste, if there is 
livestock waste, as well as commercial nutrients.
    Mrs. Napolitano. OK. Well, could you provide any of that 
information to this subcommittee so we know what is happening 
and maybe be able to understand a little more?
    Mr. Busdeker. Certainly.
    Mrs. Napolitano. Thank you, sir.
    And several of you have talked about the importance of the 
authorization of the GLRI that is in H.R. 223. Mr. Lord does 
raise the importance of the reauthorization of the EPA's Great 
Lakes National Program Office and also of the Great Lakes 
Legacy Act. Both are laws.
    Do you agree that these programs also are important for 
Congress to reauthorize?
    Mr. Dickert. If I may, yes, and the reason why is simply 
when we are working at the local level, it is all about 
consistency, and if you know, for instance, if you have a 
developer coming into a city like ours where you have just done 
a brownfield redevelopment and that person, that investor knows 
that they are coming in, but they are going to need some 
additional EPA work to make that happen, to create that better 
riverfront or lakefront, then if there is a consistency in the 
program, you know that if you do not get it in the first year, 
you can still apply the next year and still try to work through 
those to make those blend together.
    If there is no consistency, then you do not know if that 
money is there. Then you are always battling back and forth to 
see if the project is actually going to happen.
    So for us at the local level, it is purely the consistency 
knowing that the opportunity is there. It allows us to do 
longer planning, create more efficiency and make our projects 
more effective.
    Mrs. Napolitano. Anybody else?
    Mr. Allan. I would agree. Having a suite of tools 
available, GLRI, Great Lakes Legacy Act, and then having a 
Federal agency in this case, EPA, through the Great Lakes 
National Program Office, through GLNPO, being able to really 
sort of be that voice and really have that set of relationships 
develop----
    Mrs. Napolitano. So it does have importance.
    Mr. Allan. We think it has great importance moving forward.
    Mrs. Napolitano. OK.
    Mr. Allan. It adds to that clarity and adds to the 
collaboration.
    Mrs. Napolitano. Anybody else? No?
    Well, thank you for that, and, Mayor Dickert, I hate to 
bring up the issue of the MS4 [municipal separate storm sewer 
system], but that is going to have to be another issue that is 
going to affect all communities, and I am sure you know Mary 
Ann Lutz.
    Mr. Dickert. Oh, all too well.
    Mrs. Napolitano. Who is now on my staff doing the MS4 work 
with EPA.
    Mr. Dickert. Yes, yes.
    Mrs. Napolitano. So I would want to be sure that we 
communicate that we need to get more of that information so 
that EPA does work with the community to ensure that that is 
done and that it is not heavyhanded as an unfunded mandate to 
our communities.
    Mr. Dickert. Right. And candidly, the unfunded mandates 
that come down and sometimes the consent decrees that come 
down, we are already at the local level working on. We may not 
have met necessarily the goal, but I rarely know a mayor who 
simply sits back and says, ``Ah, whatever happens happens.''
    We are trying to work ahead of everything so that we do not 
have to worry about it. So any time that we can get the effort 
working together, it is great. It is dealing with the consent 
decrees and the mandates. I always tell everybody it is always 
better to work together.
    Mrs. Napolitano. Well, yes, but keep Members of Congress 
informed because they do not know anything about the stormwater 
issue or many of them are not aware that it is going to be an 
unfunded mandate on their communities.
    Mr. Dickert. Absolutely.
    Mrs. Napolitano. And they are going to be raising holy you-
know-what when it comes down as a mandate.
    Mr. Dickert. Yes, absolutely.
    Mrs. Napolitano. To Mr. Lord, some have criticized the GLRI 
for the pace which expends the funds. Is it not true that these 
programs take years to complete and that a more appropriate 
measure would be the total number of funds obligated to the 
long-term projects?
    Mr. Lord. I would agree with that. We see that this is a 
region that has winter. The lakes freeze. There is snow cover. 
The ability for projects to actually be implemented can take 
years just by the vagaries of the weather patterns. I mean we 
just do not know.
    So using obligations I think is a much better benchmark 
than trying to use expenditures or funds.
    Mrs. Napolitano. Make more sense?
    Mr. Lord. I think it does and I think the GAO report that 
came out in 2015 also highlights three or four reasons why 
expenditures may take longer and why you may not be seeing 
expenditures as quickly as you do the obligation of those 
funds.
    Mrs. Napolitano. Thank you.
    A question, Mr. Allan, real quickly. The issue that the 
EPA's old reporting system is now replaced by EAGL, have you 
seen that system? Have you looked at it?
    Mr. Allan. I have not yet. I think it was still in final 
testing, and I have not had a chance to take a look at it.
    Mrs. Napolitano. Are you being included in being able to 
understand how it will be applicable?
    Mr. Allan. We will definitely.
    Mrs. Napolitano. OK. Thank you, Mr. Chair.
    Mr. Gibbs. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman.
    Mayor Dickert, it is good to have you here. I live up near 
Green Bay and had a chance to visit your city on many occasions 
in my 35 years that I have been traveling around the country 
and stayed as a commercial contractor.
    My question for you, and I have got a couple questions for 
you if you do not mind, I have heard from the Green Bay Clean 
Water Agency as well as read in your testimony your concerns 
about the Interior appropriations bill in the Senate.
    It sounds a little inconsistent. I wonder if you could help 
me navigate the inconsistency when you talk about opposing the 
language when they are asking for no discharge. Can you expand 
your comments on that a little bit? Because it seems like it is 
not consistent with the rest of your testimony.
    Mr. Dickert. Sure, and thank you, Mr. Ribble. It is great 
to see you again, Congressman Ribble.
    When you come down with Senator Kirk's proposal I believe 
you are talking about, when you come down with a proposal that 
says that you have to eliminate all overflows, there is no 
system, and you can ask the city of Houston because I was 
talking with our mayor the week that they had their storm 
flooding; there is no system in America that is designed for 
the complexities of the weather that we are having right now.
    If we get 7 inches of rain in Milwaukee, 28 hours later it 
will be in Racine, and we will be flooding, and there is 
nothing that we can do about it because it is a 500-year event.
    So what we are talking about is we are all working, and we 
talked about this earlier. I think Congresswoman Norton brought 
it up. We are all working at creating methods and systems that 
capture stormwater, hold it, clean it, allow it to filter 
through the ground, all working to try to prevent those big 
500-year events, but it is impossible to do that.
    There is no way Houston could have prepared for what 
happened with their storm that they had. They were 3 feet under 
water. So to simply say that we all have to get to that level, 
by the time we get to that level and that 500-year flood 
happens, we are probably going to have to have an overflow at 
that time.
    So what we ask is that we are already working as a city. We 
do not have combined sewers. So we are already working as a 
city to prevent all of that. We are putting in 2-million-gallon 
storage tanks. We are doing all of the work environmentally. To 
simply say that we have to do that, that will cost the city of 
Racine $700 million for 80,000 people. Sixty-five billion 
dollars, I think, is the pricetag for the country for the Great 
Lakes region.
    It simply is unaffordable. So what I would ask is that we 
work together in advance with these communities to find those 
best practices and work through those.
    Milwaukee is a perfect example. MMSD [Milwaukee 
Metropolitan Sewerage District] is working to do different 
stormwater systems with their combined sewer to make sure that 
that stormwater never even makes it into the system. So we are 
trying to do that.
    When you look at Green Bay, 1.4 percent of the Lake 
Michigan water, 30 percent of the nutrient load into that 
areas. You know, there are problems that we are all trying to 
work through. We ask that you focus on the big problems and 
work with those folks, like Mayor Jim Schmitt in Green Bay, and 
try to help them out.
    We are trying to do our own at the local level to prevent 
this from coming in the first place, but I will tell you when a 
500-year flood hits, you pray. You pray hard because there is 
not a heck of a lot else you can do besides that.
    Mr. Ribble. I thank you for expanding your comments that 
you had in writing here.
    I want to also go a little bit further in your testimony. 
You mentioned the use of porous pavements and things like that 
in one of the projects. Has your city gone to the point of 
modifying your building codes to a 21st-century standard 
requiring porous pavements, parking lots, sidewalks, vegetative 
roofing?
    Mr. Dickert. Right.
    Mr. Ribble. Things like that that would actually bring our 
construction practices into the 21st century as far as managing 
the water runoffs during high rain events.
    Mr. Dickert. Absolutely. We do, and we work through a 
series of best practices within the U.S. Conference of Mayors 
and the Great Lakes groups to do that. We have actually gone 
above and beyond that.
    That project that I talked about earlier where we have the 
boat ramp, the harbor and the road, all of those were done with 
environmental sensibility to not only do porous pavement, but 
to then take stormwater management and manage it through the 
process of plants and things like that to preprocess the water.
    We have the system that you talked about earlier where the 
stormwater comes off and it goes through five tiers of 
environmental purifying before it even gets to the lake. We do 
all of that.
    The thing that we are doing on top of that because as 
mayors we have to stay efficient and then we have to continue 
to be efficient. We actually go to a road system where once we 
do stormwater and water and you put the cement on top of the 
road, utilities have the right to cut that road up the next 
day. We actually work now with our roads where we bring 
everybody in ahead of time, all the utilities, including water 
and stormwater, so that when we do a road, all those five 
layers are done so that when that cement cap goes on top, that 
road is not going to be touched for 20 years.
    Those types of processes in long-term planning, to the 
issues, Mr. Chairman, that you brought up earlier about whether 
those funds and Congresswoman Napolitano talked about whether 
that consistency of those funds are there; that allows us to 
plan all of that out so that we can create all of that 
efficiency so we can hold back all of those items.
    So we do that every day. The best practices we get from our 
colleagues. Mayor Daley said that, you know, the one thing you 
do as a mayor is steal, and I said as a Catholic that is tough 
for me, but we do. We steal each other's ideas and we blend 
them into what we are doing.
    Mr. Ribble. And I think it is really important because I 
often read language like is in your testimony where you say, 
``I cannot emphasize enough that we all must be fully engaged 
and fully committed to water issues if we are going to succeed. 
You cannot do this halfway.''
    I hear that a lot, but then when you do the deep dive on 
building codes, you see that they are not really fully 
committed. I would also suggest that to Mr. Wolking for the 
chambers to also be taking a look at how corporate America can 
be a partner in this issue as well.
    It has to be all of us participating as agriculture, in 
dealing with the nonpoint source, endpoint source. If we all 
would actually move into the 21st century, we could preserve 
this very important chain of water.
    So thank you very much for being here, and with that I 
yield back.
    Mr. Dickert. Thank you.
    And if I may, Mr. Chairman, not just in the ordinances, but 
in the bidding. Your bidding has to include that as well.
    Thank you.
    Mr. Gibbs. Mr. Davis, do you have any questions? Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I apologize for the side conversation there.
    And thank you, Mr. Rokita.
    First off, witnesses, we really appreciate you being here. 
My first question is for Mr. Allan.
    You wrote in your testimony that Federal agencies are not 
coordinating, consulting and engaging with the States as well 
as they could or should. What are some ways that the Federal 
agencies need to treat the States more as coequal partners in 
implementing the GLRI program?
    Mr. Allan. Good question.
    Mr. Davis. Thank you.
    Mr. Allan. So we did pose that to the EPA in our letter to 
Gina McCarthy, and she has written us back just as of a day or 
so ago, and we can enter that letter into the record as a 
response.
    And we do agree with it. She is going to invite us or open 
up additional quarterly discussions with the States, with the 
Regional Working Group. We think this will help really start to 
facilitate more sort of that front-end planning than just, you 
know, here are the priorities, here are the projects, here is 
where we have to go.
    So as I mentioned before, we are really looking to move 
that upstream a little bit more in the decision process.
    [The information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
     
    Mr. Davis. Great. Thank you.
    And, Mayor--Racine, Wisconsin, right?
    Mr. Dickert. Yes.
    Mr. Davis. Who is your Member of Congress in Racine?
    Mr. Dickert. Congressman Ryan.
    Mr. Davis. Who?
    Mr. Dickert. Congressman Paul Ryan. You might know him.
    Mr. Davis. Not ringing a bell. No, no.
    Mr. Dickert. He is a good looking, tall guy. You should get 
to know him.
    [Laughter.]
    Mr. Davis. No, Paul is great, and please do tell him that 
we were giving him some flak here in the T&I Committee.
    Mr. Dickert. I hope to see him in a little bit. I will 
remind him.
    Mr. Davis. Yes. Let him know we do have other committees 
here besides his vaunted Ways and Means. OK?
    Mayor, I have been a supporter of public-private 
partnerships. Mr. Lord mentioned more public-private 
partnerships in his testimony. I think they are a good means of 
leveraging and coordinating resources.
    As a matter of fact, my colleague, Cheri Bustos, and I, 
along with our Senators from Illinois, ensured that there was a 
provision in the WRRDA package to encourage more public-private 
partnerships.
    Do you see a role for P3s [public-private partnerships] in 
the Great Lakes restoration projects?
    And if so, how can that role lead to further success? And 
what idea may you have to get the Federal agencies past their 
hesitance of doing them?
    Mr. Dickert. Well, first of all, I think P3s are 
imperative. We use them on a regular basis because the fact is 
many of these companies, large and small, have the expertise 
that you need.
    If there is one thing you learn early as a mayor, there is 
no book on how to do the job. So you have to go out and find 
the organizations, the companies that actually can provide the 
work, especially when you are in emergency modes to finish and 
help you with these.
    I think P3s are not only imperative, but I think it is part 
of everything that we do. How can we encourage that and move it 
forward? I still think that the blending of the local 
governments, the State priorities and the Federal priorities 
should be matched up a little bit more. I think that we can get 
better leverage.
    The other thing I would suggest is that--and I think the 
EPA has allowed for this already. Regionalization of project 
planning, so in other words, if you have two or three 
municipalities in the same area and especially in the Maumee 
Valley in Ohio, looking at solving that bigger, very complex 
situation, allowing projects to be worked together by one 
company, if there is one company that is very good at what they 
are doing, allow them to work on three projects at the same 
time to help blend the efficiencies and savings of that effort.
    So those are a couple of things that I would suggest.
    Mr. Davis. So you are saying the Federal agencies should 
let local municipalities walk and chew gum at the same time.
    Mr. Dickert. We would love that.
    Mr. Davis. Yes, thank you. We would, too.
    Mr. Busdeker, hey, thank you for being here, too. I have a 
question for you. Is the NRCS doing enough to support the 
agricultural community to implement conservation and best 
management practices to reduce nonpoint source pollution?
    Yes or no?
    Mr. Busdeker. Yes and no. They could do more. We could 
always do more. There is a lot of work to be done. We are not--
--
    Mr. Davis. That was my next question. What more should they 
be doing?
    Mr. Busdeker. Well, certainly cover crops are a big piece 
of what we are doing out here today; control structures on 
tile, and even maybe a little bit off to the side here, 
research is another big piece. We need to do more research on 
this edge of field work so we know where this dissolved 
reactive phosphorus is really coming and what BMPs can help 
mitigate it.
    Mr. Davis. Excellent. We actually just had a research 
hearing in my other committee. I had another hearing which is 
why I was late for this one in the House Committee on 
Agriculture, and in our hearing yesterday and the subcommittee 
I chair focused on agricultural research and working with our 
land-grant universities.
    If you see a way to partner with our land-grants and with 
other institutions within the agricultural community to get 
more research dollars towards conservation, please do let me 
know.
    And with that, Mr. Chairman, I yield back the second I have 
left.
    Mr. Gibbs. Mr. Rokita.
    Mr. Rokita. I thank the chairman, and I appreciate the 
witness testimony today and also from the first panel as well.
    I give my apologies. Today in three committees and starting 
yesterday actually where we are getting ready to employ a 
concept called reconciliation, and the Workforce Committee just 
did its part of the reconciliation process for this year that 
originated in the Budget Committee that I am also a part of. So 
it was a busy day for a lot of us. No excuse, but just want you 
to know where I was before this.
    And even though I was distracted by the gentleman from my 
left and though I associate with him regularly, I was able to 
hear a little bit of your testimony, and so I would like to 
focus my questions I think mostly, and no offense to anyone 
else, but I want to focus my questions directly to Mr. Lord if 
that is OK.
    Reading your statement last night, you talk about the 
number of jobs that can be created on the Great Lakes due to 
these restoration projects. I am from Munster, Indiana, Lake 
County. So we are right up there, grew up there, and I would 
like to think I appreciate the cultural value, the economic 
value, the environmental value of those lakes.
    But this committee and this subcommittee is new to me. I 
want to understand more when you say this will create jobs. Do 
you mean to imply that these restoration efforts are going to 
go on in perpetuity or is there some day when this ends, 
therefore technically making the jobs temporary?
    Yes, that is a trick question.
    Mr. Lord. I would suggest that that day is a while away. So 
the jobs would be fairly permanent. We have a lot of work that 
needs to be done in the Great Lakes region to address the 
decades of problems that have been building.
    While we have been able to make progress in cleaning up our 
areas of concern, for example, we still have 27 that remain 
unattended and need to have more focus. While we have been able 
to make some progress in creating new habitat and wetlands, we 
have had a significant amount of----
    Mr. Rokita. So in your mind, when is enough enough? When 
would you be satisfied definitionally that the restoration has, 
in fact, occurred? When these 20 projects are done?
    Mr. Lord. Well, I do not know if it is as simple as that. 
That is a very good question, but it is a very difficult 
question at least for me to answer.
    Mr. Rokita. You have got 2 minutes.
    Mr. Lord. Well, I will do my best. I think I don't know 
when we will be done. I think some of the indicators that we 
would like to see that would help suggest when we may be close 
to being finished with our restoration activities would be for 
a system of lakes and connecting channels that are resilient, 
that can accommodate the stresses that we have put on them 
through the legacy of toxic pollution or habitat loss or the 
introduction of new invasive species or the impacts that we are 
seeing from climate change.
    So we would have a better sense as to knowing that we will 
be closer to being finished with this project when the reaction 
of the system is such that it is able to adapt more effectively 
to the changes that we are asking the system to make.
    Mr. Rokita. Thank you.
    Would anyone else like to jump in my line of questioning in 
terms of response? Mr. Allan?
    Mr. Allan. I would, and I will direct it in one hand 
specifically to the Area of Concern Program. That is one of the 
big pieces of GLRI.
    Communities have set out very real markers for what they 
see on all the different beneficial use impairments. When they 
meet the next threshold to be able to remove that and if you 
remove all of the beneficial uses, then you can delist the area 
of concern. So that one has very real and definitive markers of 
success: habitat replacement, loss of habitat, fish, 
consumption of fish, all of those pieces.
    And we see ``done'' in the case of GLRI and under Area of 
Concern Programs specifically when each of those markers are 
met and the community essentially agrees with the progress 
made.
    So as principals and actions and projects take place in 
those communities, as we continue to delist the use 
impairments, whatever that is, once those are agreed to and 
acknowledged by the community, we can then move on to other 
things.
    Mr. Rokita. Anyone else?
    Mr. Allan. If we collect enough of those, then the 
community can celebrate its success.
    Mr. Rokita. Anyone else for 10 seconds?
    Mr. Wolking. If I may, yes. I think you need to understand, 
too, that getting there gets us to a point where we can say we 
have accomplished these objectives, but we also have to be able 
to sustain, and these are changing ecological and environmental 
systems. So can we also sustain and can we also then find there 
are other needs as well?
    We do not know.
    Mr. Rokita. Thank you. My time has expired. Appreciate it.
    Mr. Gibbs. I have one question. I want to kind of finish up 
with Mr. Wolking.
    In your written testimony, I do not think you highlighted 
this in your verbal testimony, but you talk about the 5,300 
miles of shoreline and the complex work and we learn as we go. 
Then you talk about the second major phase of the plan, 2015 to 
2019, and the introduction of science-based adaptive 
management, improvements in prioritization, and better 
reporting on measures of progress and their impact.
    I see you have Brookings Institution and Grand Valley State 
trying to get cost-benefit analysis and trying to quantify 
where we are headed.
    It is hard to do, but do you want to elaborate a little bit 
on trying to monitor the impacts, the economic impacts for the 
benefit?
    Mr. Wolking. I think that is the most difficult part of 
this whole process when we are talking about measuring in 
metrics. I think it is easier to measure the environmental 
impact and results, but then when you start talking about, 
well, what economic activity proceeds from that, it is a lot 
more complicated than saying we are putting a machine on the 
floor that can put out a certain number of parts at a certain 
estimated cost, and we are borrowing X funds at X percent.
    You know, this is different, and it would seem to me that 
there is a great opportunity here if we stay the course to 
observe as we have finished projects and we have attained 
results to watch what happens in those communities, which 
partly will be as a result of what has been accomplished with 
the initiative.
    Again, you are talking about people and systems and 
environment, and they all come together. There are many things 
that go into the soup, but clearly I think as we get more time 
under our belts observing what we have been able to accomplish 
and observe what happens in the communities as we go forward I 
think we will be able to see measurable results. That can at 
least partly be attributed and tied back to the initiative.
    It is the level of activity, I think. That is a great word 
to keep in mind. As these things happen and are completed, you 
are going to see activity as a result in those areas, whereas 
before you were seeing no activity.
    Mr. Gibbs. That is a good point to end this hearing, I 
think.
    I want to thank you all for coming in.
    Do you have one more point? Go ahead.
    Mrs. Napolitano. Just one very quickly, and that is to Mr. 
Lord.
    Mr. Rokita touched on the job creation issue, and while it 
has been 5 years and you have already created the jobs, it will 
hopefully be another 5 years. How long do you think this can 
continue to create the jobs and will those jobs change as new 
technology and as improvements are done?
    What do you see will happen, the challenges that may be 
ahead?
    Mr. Lord. Well, it depends on the type of jobs that we are 
talking about, but some of the things that we have seen, some 
of the results that we have seen as a result of the Great Lakes 
Restoration Initiative through some of the habitat 
improvements, for example, very much sustain the kinds of 
outdoor jobs that we would like to see in the region, jobs for 
folks that sell the guns and the ammo and the fishing hooks and 
the rest of it to the people who are going into Michigan or 
Ohio or any of the other Great Lake States in order to enjoy 
the outdoors.
    As I also noted, the restoration project that we have 
undertaken while we are 5 years in, we have got a long way to 
go.
    Mrs. Napolitano. How long do you think that might have to 
go?
    Mr. Lord. I cannot answer that question, ma'am. It is a 
very----
    Mrs. Napolitano. Three decades, four decades?
    Mr. Lord. These are large lakes with a lot of problems, and 
we have, I think, made a very significant and valiant effort 
and a lot of progress to date in cleaning them up, but as 
noted, we have got 27 AOCs, areas of concern, that remain, and 
they are very complicated projects in terms of getting those 
finished.
    So I think the bottom line is there is a lot more work, but 
the benefits, as Mr. Wolking was highlighting, are that when we 
clean up these areas of concern, for example, these communities 
that have had this anchor around their necks in terms of this--
it's gone, and so you can see the development coming, the 
highrises or whatever they may want to do in these newly 
cleaned up places.
    We have begun to see some of that happen, and so that is 
the kind of excitement that the GLRI can bring and I think will 
continue to bring as we make more progress in the future.
    Mrs. Napolitano. Thank you, sir.
    Thank you, Mr. Chair.
    Mr. Gibbs. Well, again, I want to thank you for coming in.
    I think this was quite an interesting discussion, and 
hopefully we can move forward with the formal authorization and 
reliable, sustainable funding.
    We had a hearing just recently on brownfields, Mayor. That 
is a key issue. We have made a lot of progress, sir, I think, 
in integrated permitting and planning, I think you highlighted 
that. We have had hearings on that, and are trying to work with 
the U.S. EPA to allow municipalities like yourselves to do 
integrated permitting so that you can address what your needs 
are, which might be different than the needs in Cleveland, for 
example.
    And so thank you all for coming in to highlight the 
importance of the Great Lakes to economic stability and job 
creation in the region.
    Thank you very much, and this concludes our hearing.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
  
                                    
</pre></body></html>
